<html>
<title> - THE TRIBAL LAW AND ORDER ACT--FIVE YEARS LATER: HOW HAVE THE JUSTICE SYSTEMS IN INDIAN COUNTRY IMPROVED?</title>
<body><pre>[Senate Hearing 114-387]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-387

  THE TRIBAL LAW AND ORDER ACT_FIVE YEARS LATER: HOW HAVE THE JUSTICE 
                   SYSTEMS IN INDIAN COUNTRY IMPROVED

=======================================================================

                                 HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 2, 2015

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                         U.S. GOVERNMENT PUBLISHING OFFICE
22-171 PDF                       WASHINGTON : 2016                         
         
         
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5a3d2a351a392f292e323f362a7439353774">[email&#160;protected]</a>  
         
         


                      COMMITTEE ON INDIAN AFFAIRS

                    JOHN BARRASSO, Wyoming, Chairman
                   JON TESTER, Montana, Vice Chairman
JOHN McCAIN, Arizona                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               TOM UDALL, New Mexico
JOHN HOEVEN, North Dakota            AL FRANKEN, Minnesota
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Anthony Walters, Minority Staff Director and Chief Counsel
                            
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 2, 2015.................................     1
Statement of Senator Barrasso....................................     1
Statement of Senator Cantwell....................................     4
    Prepared statement...........................................     4
Statement of Senator Heitkamp....................................     5
    Prepared statement...........................................     5
Statement of Senator Hoeven......................................    27
Statement of Senator Murkowski...................................     3
Statement of Senator Tester......................................     2

                               Witnesses

Beadle, Mirtha, Director, Office of Tribal Affairs and Policy, 
  Substance Abuse and Mental Health Services Administration, U.S. 
  Department of Health and Human Services........................    11
    Prepared statement...........................................    13
Gobin, Hon. Glen, Vice Chairman, Tulalip Tribes of Washington....    22
    Prepared statement...........................................    23
Roberts, Lawrence S., Princinal Deputy Assistant Secretary, 
  Indian Affairs, U.S. Department of the Interior................     6
    Prepared statement...........................................     8
Toulou, Tracy, Director, Office of Tribal Justice, U.S. 
  Department of Justice..........................................    16
    Prepared statement...........................................    18

                                Appendix

Jackson, Ryan P., Chairman, Hoopa Valley Tribal Council, prepared 
  statement......................................................    43
Leonhard, M. Brent, Attorney, Office of Legal Counsel, 
  Confederated Tribes of the Umatilla Indian Reservation and Bill 
  Boyum, Chief Justice, Cherokee Supreme Court, joint prepared 
  statement......................................................    41
Response to Written Questions Submitted by Hon. Al Franken to 
  Mirtha Beadle..................................................    47
Scott, Carol Wild, Legislative Director, Veterans and Military 
  Law Section, Federal Bar Association, prepared statement.......    45
Written question submitted to Tracy Toulou by Hon. Al Franken....    50

 
 THE TRIBAL LAW AND ORDER ACT--FIVE YEARS LATER: HOW HAVE THE JUSTICE 
                  SYSTEMS IN INDIAN COUNTRY IMPROVED?

                              ----------                              


                      WEDNESDAY, DECEMBER 2, 2015


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Barrasso, 
Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    The Chairman. Good afternoon. I call this hearing to order.
    Today the Committee will examine the Tribal Law and Order 
Act--Five Years Later: How Have the Justice Systems in Indian 
Country Improved?
    Congress passed this Act in 2010 to improve criminal 
justice and public safety in Indian communities. Federal 
responsiveness and accountability was a fundamental principle 
underlying this Act. The Act recognized that the Departments of 
Justice, Interior, and Health and Human Services play key roles 
in the justice systems in Indian communities.
    This law required more collaboration, coordination, program 
improvements and specific reporting from these departments. 
Their active involvement is critical for these communities, 
particularly the Department of Health and Human Services.
    In the field hearing we held on the Wind River Reservation 
in Wyoming earlier this year, every witness stated that drug 
and alcohol abuse is involved in nearly every crime occurring 
on the reservation and possibly throughout Indian Country. If 
we do not address the drug and alcohol abuse, we will not see 
improvements in the justice system. So we will examine how 
effective the agencies have been in reducing crime and 
recidivism rates through their coordination and respective 
programs.
    The Tribal Law and Order Act also intended that better data 
be produced so that resources can be more effectively used. 
Annual reports on the Bureau of Indian Affairs, spending and 
unmet needs have not been submitted as required by the law. The 
last Bureau of Indian Affairs report was issued in April of 
2013 on fiscal year 2010 information. The Department of Justice 
just submitted the most recent declarations report less than an 
hour before the hearing today. Before that, the Department of 
Justice issued only its second report in August of 2014.
    There is no justification for such delays. This is 
something that has been a bipartisan concern that raises 
questions regarding the agency's accountability, commitment to 
Indian Country justice, and it defeats the purpose of the 
creation of this whole piece of legislation in the first place.
    So before we hear from the witnesses on these statements, I 
want to ask the Vice Chairman, Senator Tester, if he has an 
opening statement, then we will ask other members as well.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. I am going to start by going off script, 
then I will probably end by going off script. Mr. Chairman, and 
it was that way when I was chairman, oftentimes, we get the 
information we asked for at the last minute.
    I just want to put something out so that you guys know it. 
I know you have a busy schedule. I know you have a lot of stuff 
to do. This is the only Committee that has this happen on a 
regular basis. The only one. Indian Country is in crisis. What 
this tells me is, it is not a priority for you. You have to 
make it a priority. Because we not going to solve problems in 
Indian Country if we are not working together on this. Quite 
frankly, if we don't get the information when we need it, we 
can't make the decisions we need to make to help Indian 
Country.
    That is all I will say on it. It is unacceptable. It is the 
only Committee that this happens almost on a regular basis. 
Almost every Committee meeting, the chairman says something 
like this. And I did when I was sitting in that chair.
    So let's fix it. It is not that big a deal.
    I want to thank Chairman Barrasso for holding this hearing 
today and bringing together the stakeholders involved in tribal 
justice to update this Committee on the progress that has been 
made over the last five years since we passed the Tribal Law 
and Order Act of 2010. It is a crucial function of this 
Committee, oversight is, and I am pleased that we are able to 
hear today from multiple agencies who impact public safety in 
Indian Country, as well as the Tulalip Tribe, which has 
utilized new authority under the TLOA, sitting in these chairs 
this week. This Committee is well aware of the issues that 
impact tribes and how much more needs to be done in order to 
ensure public safety and justice in Indian Country.
    The Tribal Law and Order Act, although historic and 
sweeping, was just beginning the work that needs to be done. 
But it is an important step forward.
    Another important step was reauthorization of VAWA in 2013, 
which affirmed tribal criminal jurisdiction over non-Indians in 
special cases of domestic violence. I want to acknowledge the 
Fort Peck Assiniboine and Sioux Tribes of Montana who are 
leading the way in improving public safety. Their community was 
one of the first five tribes selected to be part of the VAWA 
pilot project to exercise tribal jurisdiction over domestic 
violence in Indian Country.
    The VAWA provisions, along with the enhanced sentencing 
authorized under TLOA are both great tools for tribes to 
improve public safety in their communities. My hope is that the 
work of Fort Peck and the work of other tribes exercising 
jurisdiction under VAWA, like the Tulalip Tribe testifying 
today, is laying the groundwork for other tribes to follow. One 
issue we will need to address is the maze of jurisdiction 
regarding different crimes on tribal lands. VAWA is the right 
step in the right direction, but there are still big gaps in 
jurisdiction. Expanding criminal jurisdiction further can help 
tribes solidify and truly exercise self-determination over 
their lands and improve public safety in their communities.
    I would like to thank the witnesses we have here today. I 
appreciate the work that you do. I look forward to your 
testimony to see how we can improve public safety.
    I would just close by saying one other thing, because, Mr. 
Chairman, you brought up the fact that we have some issue with 
drugs in Indian Country and we have some issues with 
unemployment in Indian Country. All that feeds into a situation 
where law enforcement becomes a big deal. I would just say as 
we move forth in this Committee to try and make sure that the 
Tribal Law and Order Act works to the best of its ability, we 
also take a look at things we can do working with the tribes. I 
think these solutions have to come from the ground on how we 
can solve the unemployment problems and educate folks about how 
disastrous drugs are, not only for the person but for the 
community that they live in, too.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Vice Chairman Tester.
    Additional statements? Senator Murkowski.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman.
    Mr. Chairman, before I comment on Tribal Law and Order, I 
do have a statement that I would like to submit for the record 
regarding your legislation, the Interior Improvement Act. While 
I was not here in person when you voted it out, it was 
certainly my intention to be supportive of that. I do want to 
just note for the record that I want to continue to engage on 
this issue. I want to engage with our Alaska stakeholders over 
whether or not this bill brings all the appropriate folks to 
the table, and when considering an Alaska application, if these 
applications can lawfully be considered or whether our 
alternate procedures are appropriate for the State.
    I do think that we need to be engaging in a level of 
consultation in Alaska on this very important issue. As you 
probably know, we are awaiting the outcome of some litigation, 
the Akiachak case. The situation in our State is perhaps a 
little bit different. So again, I just want to note that we 
would like to continue working with you on that. I will submit 
a comment.
    I would beg to differ with the Vice Chairman in his 
comments, when he says that this is not that big of a deal, it 
shouldn't be that big of a deal. This is a big deal, Mr. 
Chairman. And I think it is, and I think the Vice Chairman 
acknowledges that, and I am kind of using his words out of 
context here.
    But this is not something to be taken lightly. In my State, 
the issues of tribal justice, the issue of law and order is one 
that is primary and paramount. In talking with other colleagues 
on this Committee and colleagues that also represent many of 
our Native populations, the issue of justice for our First 
Peoples is one that is a big deal. We need to be working hand 
in glove with the Administration, with the States, with the 
tribes.
    So when a hearing is called to discuss how this measure 
that has been in play now for five years is working, is 
performing, I don't think it is too much to ask for testimony 
to be submitted for the Committee to review. It was suggested 
by my staff that, well, you have all kinds of demands on your 
time right now, boss, and since we don't have any idea what is 
going to be said, maybe I should be somewhere else. It is just 
not appropriate.
    So it is a big deal and I know we are just kind of piling 
on here. But I do think it is a message that needs to be made 
loud and clear, that this is not a partisan, Republicans 
attacking the Democrat Administration. This is the Senator from 
the State of Alaska, representing half the tribes in the 
Country, that is concerned that we are not getting what we need 
from the Administration on an Act that many, many of us feel is 
very, very important.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murkowski. Senator 
Cantwell?

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. I would like to 
thank you for holding this hearing. I would like to welcome the 
Vice Chairman of the Tulalip Tribe here, Mr. Glen Gobin, and 
thank him for being here to testify. He has been a member of 
the tribal council for 16 years, as well as a tribal business 
committee member for the last 13 years, and 12 of those years 
he was the chair. So he has been very, very active in the 
community and a dedicated father and grandfather. I so 
appreciate the Tulalip Tribe being represented here today.
    I have a much longer statement about, obviously, all of 
these issues and what we need to do moving forward, but I will 
submit that for the record.
    [The prepared statement of Senator Cantwell follows:]

Prepared Statement of Hon. Maria Cantwell, U.S. Senator from Washington
    Thank you Mr. Chairman, and I thank you for holding this hearing on 
such an important topic.
    I would like to introduce Vice Chairman Glen Gobin form the Tulalip 
Tribe in Washington state. I appreciate you making the trip out here to 
testify before the committee today. Vice Chairman Gobin has served as a 
member of the Tribal council for the last 16 years, as well as the 
Tribal business committee for the last 13 years, 12 of which he was 
chair. He is active community member and a dedicated father and 
grandfather.
    Violent crime and the ability to prevent it remains one of the 
biggest issues facing Indian Country today, particularly for Native 
American women.
    According to the Department of Justice, violent crime reservations 
occurs at rate two and a half times greater than the rest of the 
country, but is sometimes much higher. In addition, a third of all 
Native women will be the victim of sexual assault in their lifetime. 
Not only are these statistics startling, they are unacceptable.
    Over the last few years, Congress has worked with Tribes to make 
their communities safer, and give Tribes the tools they need to develop 
robust Tribal justice systems. The Tribal Law and Order Act increased 
sentencing authority for Tribes, particularly repeat offenders, 
expanded federal support for construction Tribal justice centers, and 
reauthorized grants to expand resources for policing as well as youth 
centers and treatment for those suffering from drug and alcohol 
addictions.
    In addition, the Violence Against Women Reauthorization Act of 2013 
expanded sentencing authority for Tribes to allow them to prosecute 
non-Indian offenders in domestic violence.
    The Tulalip Tribe in my home state of Washington has been leading 
by example. The Tribal Law and Order Act gave Tulalip the authority to 
update and strengthen its criminal codes, and the Tribal liaisons in 
the U.S. Attorney's office created by the Tribal Law and Order Act have 
strengthened the relationship between the Tribe and the Federal 
Government. Tulalip were one of the first Tribes to begin implementing 
the Tribal provisions of the Violence Against Woman Act, and successful 
in prosecuting and convicting domestic abusers that have sought to harm 
Native woman.
    However, while these important steps have been made to improve the 
justice system in Indian country, there is still more work that needs 
to be done. We need to continue to support Tribes with resources and to 
fix gaps that leave some victims still vulnerable. I want to thank Vice 
Chairman Gobin again for being here today, and I look forward to 
hearing his testimony today and the testimony of the other witnesses 
today. Thank you Mr. Chairmen, I yield back.

    The Chairman. Thank you, Senator Cantwell. Senator 
Heitkamp?

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Thank you, Mr. Chairman.
    When I was Attorney General, we had a boarding school in 
Wahpeton, North Dakota, called Circle of Nations. We accepted 
kids from all over. We had a young Navajo girl who was going to 
school there. When it came time for her to go home in the 
summer, she told the supervisor that if she went home she would 
be sexually assaulted by family members. She begged to stay at 
the school.
    We thought about how could we protect her. In order to get 
her home, we had to helicopter her to her house. Now, I tell 
you that, because we have the double problem of serving and 
protecting the most vulnerable in rural America, but also in 
Indian Country where jurisdictional issues are not clear 
frequently. And so when we don't see a priority being placed on 
victims and on protecting people, when that is the fundamental 
obligation of government, we are going to be a little 
disappointed.
    So whatever it takes for you to send that message back that 
we are serious about this, because you may not see it, but when 
we go home, we see it every day. Senator Murkowski can tell you 
horrible stories, just as I have just told you. We are grateful 
for all the work that you do. But understand, this is important 
business. And so when it is not treated like it is important 
business, we get a little upset.
    Mr. Chairman, if I can extend my remarks in writing, I 
would appreciate it. I just wanted to make that point.
    [The prepared statement of Senator Heitkamp follows:]

  Prepared Statement of Hon. Heidi Heitkamp, U.S. Senator from North 
                                 Dakota
    But, you should also know that I'm glad to see a crucial federal 
partner, SAMHSA from HHS, included among the witnesses today. I hope 
this comprehensive discussion will work to address the many hard issues 
addressed by TLOA, including underlying causes of crime and substance 
abuse, such as trauma. As you know, tribes in North Dakota are known as 
``large land based tribes.'' For example, the Standing Rock Sioux 
reservation is approximately 3,682 square miles, or 2.3 million acres--
roughly the size of the State of Connecticut. For all this land mass, 
the tribe has limited law enforcement officers, and too often, there is 
no federal ``cop on the beat'' to assist tribal communities in 
addressing the many symptoms of trauma. So, having SAMHSA here will 
broaden the conversation to looking at the root of these issues, since 
it is clear that more federal resources are not easy to come by.
    Ultimately, we have a big job before us when 34 percent of Native 
women will be raped in their lifetimes; 39 percent of Indian people 
will be subject to domestic violence; violent crime rates across Indian 
Country are twice the national average; and Indian children experience 
abuse at rates 50 percent higher than their non-Native counterparts.
    Issues of high rates of violence, substance abuse, and 
incarceration affect everyone whether they are a tribal member or not. 
You simply cannot live in or near these conditions without them taking 
a toll on the fabric of the community. I look forward to hearing from 
the witnesses and hope to hear about improvements now five years out 
from the law's enactment. I also hope to hear about necessary next 
steps for building on any successes and ways that you are looking at 
trauma as an underlying cause for many of the issues affecting Native 
communities. Thank you again, Mr. Chairman for holding this important 
hearing.

    The Chairman. Thank you so much, Senator Heitkamp.
    We have four witnesses here today. I want to remind the 
witnesses that your full written testimony will be made part of 
the official hearing record, so please keep your statements to 
five minutes so that we may have time for questions. I look 
forward to hearing your testimony, beginning with Mr. Roberts.

 STATEMENT OF LAWRENCE S. ROBERTS, PRINCINAL DEPUTY ASSISTANT 
   SECRETARY, INDIAN AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Roberts. Thank you, Chairman Barrasso, Vice Chairman 
Tester, members of the Committee. I want to thank you for the 
opportunity to provide testimony on implementation of the 
Tribal Law and Order Act that was signed into law by President 
Obama in 2010.
    With me today is our Office of Justice Services Director, 
Darren Cruzan. Mr. Chairman, he testified at your oversight 
hearing in Wind River. He and his members of his dedicated team 
are here. They deserve a great deal of recognition for the 
Department's work in this area.
    My written testimony provides a lot of detail about the 
Office of Justice Service's work in Indian Country and across 
the Administration to implement TLOA. I want to take a few 
minutes just to highlight how TLOA has led to a renaissance of 
tribal criminal justice authorities and capabilities and how 
BIA has worked with Indian Country on tribal justice systems.
    So I would ask the members to consider a hypothetical 
situation. A tribal police officer, trained at a tribal 
college, who holds a special law enforcement commission, which 
includes training taught by an AUSA on patrol in Indian 
Country. If that officer came into contact with an individual 
suspected of a crime, they would radio a dispatcher over a 
tribally-operated frequency to run a criminal history check 
from a national data base. Assuming that individual was 
arrested, charged and convicted, they could be sentenced for up 
to three years in jail and serve that sentence in a tribally-
operated facility.
    That unremarkable scenario that I just laid would have been 
impossible before TLOA. TLOA recognized the importance of 
cross-deputization agreements by providing for BIA special law 
enforcement commissions to assist BIA with addressing crime in 
Indian Country. Prior to TLOA, this issue was a constant source 
of concern between tribes and the BIA.
    Based on the good work of TLOA, BIA has developed policies 
and procedures in 2011, and today we have a system that works 
for tribes and there are more than 1,300 special law 
enforcement commission tribal, State and local officers.
    TLOA has also fostered the sharing of information between 
BIA, DOJ and the tribes. Today tribes and BIA agencies 
electronically provide data to FBI's uniform crime report data 
collection process. Our OJS staff, Darren Cruzan and his team, 
they took the lead role in helping to provide multiple training 
sessions to tribes and BIA personnel to use this system.
    The Sycuan Tribe in California is an example of the success 
that has occurred in information sharing under TLOA. Through 
the assistance of BIA, Sycuan now has access to California's 
law enforcement telecommunications system. In addition, OJS 
recently implemented a program where it will perform name-based 
emergency background checks for tribal social service entities 
via Federal criminal data bases. So if a tribe's social 
services entity needs to run a background check for somebody by 
name, for placement of a child in a home in an exigent 
circumstance, OJS will do that work.
    TLOA has provided for Interior to issue a report on unmet 
staffing needs, Chairman Barrasso. You mentioned that in your 
opening statement, as did Vice Chairman Tester. In our 2013 
report, we estimated the unmet needs at that time of $420 
million. We are working very diligently, I want to share with 
this Committee, I wish we had gotten it out well in advance to 
this Committee. We want to make sure that the numbers are 
right, and we want to make sure that it is a comprehensive 
report. So in our last report, it looked at those tribes that 
had 638 contracts that we serviced directly. We are looking to 
provide a more comprehensive report and hope to get that to the 
Committee as soon as we can.
    Under the act, we have promoted true intergovernmental and 
interagency collaboration and training. Today, law enforcement 
officers patrolling Indian Country can receive training through 
State or tribal police academies, State or tribal college or 
universities or other training academies that meet appropriate 
standards. We have also under TLOA developed a bridge program. 
For those State-trained law enforcement officers that want to 
serve in Indian Country, they can take advantage of this 
program. So far, this program has trained 108 State-certified 
law enforcement officers.
    Finally, I just want to touch upon an initiative that I 
know was mentioned by many of you during your opening 
statements. That is the issue of high rates of alcohol and drug 
related offenses. Under Darren Cruzan's leadership, he started 
a recidivism project, a pilot project that looks at three 
reservations, the Ute Mountain Ute Reservation, the Red Lake 
Reservation and the Shoshone Paiutes of the Duck Valley Indian 
Reservation. We are pleased to report, as part of that pilot 
program over the last couple of years, that those three tribes 
are experiencing a double digit percentage reduction in 
recidivism under that targeted program.
    So the results are largely due to the focus of what is 
challenging for these repeat offenders, what assistance they 
need. Obviously, tribal leadership has been critical in the 
advances on that pilot project. We hope to do more, because it 
has been successful in the three locations where we have 
implemented it.
    So much work remains to be done. I know I have gone over my 
time here, and I want to thank you for the opportunity to 
testify and am available to answer any questions of the 
Committee.
    [The prepared statement of Mr. Roberts follows:]

 Prepared Statement of Lawrence S. Roberts, Princinal Deputy Assistant 
       Secretary, Indian Affairs, U.S. Department of the Interior
    Chairman Barrasso, Vice-Chairman Tester, and members of the 
Committee, my name is Lawrence Roberts and I am the Principal Deputy 
Assistant Secretary of Indian Affairs at the Department of the Interior 
(Department). Thank you for the opportunity to provide testimony before 
this Committee on the Tribal Law and Order Act (TLOA), Pub. L. No. 111-
211 (2010). On July 29, 2010, President Obama signed TLOA into law with 
the goal of improving public safety in Indian Country. I am pleased to 
be here before this Committee today, more than five years after the 
law's enactment, to provide an update on the Bureau of Indian Affairs 
Office of Justice Services (BIA-OJS) work with Tribes to implement 
TLOA.
    The health, welfare, and safety of our Tribal communities are 
priorities of the Obama Administration. TLOA has provided Tribes 
additional resources and has fostered greater self-determination and 
self-governance of their justice systems. Law enforcement and public 
safety in the United States is largely administered on a local level 
and TLOA has helped ensure that this is also the situation in Indian 
Country.
    Indian Country still faces many public safety challenges. As the 
Committee knows, far too many tribal communities are experiencing the 
devastating effects of alcohol and drugs. However, the Administration 
is encouraged by the progress made and believes that public safety has 
and will continue to improve in Indian Country. Updates on 
implementation and other related services follow.
Law Enforcement Training Standards
    TLOA promoted greater flexibility in training law enforcement 
officers patrolling Indian Country. TLOA provided that law enforcement 
training standards could be satisfied through training at a State or 
tribal police academy, a State, regional, local, or tribal college or 
university, or other training academy that met appropriate standards. 
BIA-OJS has responded by permitting greater flexibility in training of 
police officers serving Indian Country. Five years later, training of 
law enforcement officers in Indian country is more flexible which 
results in a larger pool of eligible applicants and a better trained 
workforce.
    The Indian Police Academy developed the three-week ``Basic Police 
Officer Bridge Training Program'' to meet relevant federal training 
standards for state-trained officers serving Indian Country. The bridge 
program offers federal law and BIA-OJS policy courses including 
training on jurisdiction in Indian Country and TLOA. State-trained 
officers submit a basic training waiver to the academy for review and 
approval for reciprocity of minimum training standards. Approved 
training allows applicants to attend the basic bridge program instead 
of the fifteen-week basic police program. To date, the Indian Police 
Academy has provided ten sessions of the three-week ``Basic Police 
Officer Bridge Training Program'' and has trained 108 law enforcement 
officers in the program. Overall, the program has an 89 percent 
graduation rate.
    Section 231(b) of TLOA provided that BIA-OJS develop policies and 
procedures to enter into deputation agreements for the purpose of 
issuing BIA Special Law Enforcement Commissions (SLECs). SLECs allow 
full time certified Tribal, Federal, state, and local enforcement 
officers to assist BIA in the enforcement of Federal criminal statues 
in Indian Country. These policies and procedures were developed and 
enacted on January 25, 2011. Additionally in 2011, BIA-OJS and DOJ 
partnered to update the Criminal Jurisdiction in Indian Country (CJIC) 
training curriculum. The course was completely redesigned to provide 
current information on law enforcement, jurisdiction and legal topics; 
all of which are critical to the successful response, investigation and 
prosecution of federal crimes in Indian Country. The new two and half 
day CJIC training curriculum was piloted in Oklahoma in March 2012, 
followed by a subsequent pilot in California in April 2012 based on 
fine-tuning revisions. The standard CJIC curriculum was then rolled out 
nationwide.
    The course is taught by Indian Country AUSAs and Tribal Liaisons 
from DOJ. This is consistent with TLOA's provisions regarding the 
duties of Assistant United States Attorney Tribal Liaisons, including: 
``Conducting training sessions and seminars to certify special law 
enforcement commissions to tribal justice officials and other 
individuals and entities responsible for responding to Indian country 
crimes.'' The CJIC curriculum and materials were disseminated to the 
United States Attorney Offices with Indian Country in their 
jurisdiction for familiarization, since their personnel serve as the 
actual course instructors. DOJ also reviews the CJIC course curriculum 
and materials annually, updating legal issues and case law.
    In 2015, BIA-OJS and DOJ collaborated to create and implement a 
CJIC Master Schedule approach by disseminating a CJIC training schedule 
for the upcoming year, including locations and dates. This allows for 
advance planning by all agencies involved, including law enforcement 
partners that require training and DOJ Indian Country AUSAs and Tribal 
Liaisons within the various districts.
    BIA-OJS also assists Tribes with background checks during the 
hiring process of tribal law enforcement officers. Section 231(a)(4)(A) 
requires BIA-OJS, when requested by a Tribe, to conduct background 
checks for tribal law enforcement and correctional officials no later 
than 60 days after the date of receipt of the request. BIA-OJS has 
developed a new background policy and provided background and 
adjudication training throughout the country. During FY 2015 OJS 
provided a total of fifty-eight (58) background investigation for 
twenty-eight (28) tribes.
Data/Information Sharing
    TLOA recognized that accurate data is essential for the development 
of effective public safety strategies. It also recognized that data is 
a fundamental tool of law enforcement and the need to share such data 
among law enforcement agencies. TLOA addressed this issue in a variety 
of ways. It provided for BIA-OJS to share with DOJ all relevant crime 
data received from tribal law enforcement agencies. BIA-OJS has 
accomplished this requirement. Today, Tribes and BIA agencies provide 
data to the FBI's Uniform Crime Report (UCR) data collection process 
through electronic submissions. BIA-OJS took a lead role in achieving a 
seamless transition for Indian Country. BIA-OJS coordinated multiple 
training sessions for tribes and BIA agencies on the FBI's UCR Program. 
Furthermore, BIA-OJS followed up with individual technical assistance 
and additional training to ensure that deployment of the electronic 
reporting was a success for Tribes.
    Further, Section 211(b)(2)(D)(13) provided for BIA-OJS to provide 
technical assistance and training to tribal law enforcement officials 
to gain access and input authority to utilize the National Criminal 
Information Center and other national crime information databases. BIA-
OJS has been working with DOJ to identify needs in Indian Country 
regarding access to databases with the FBI's Criminal Justice 
Information Services (CJIS) Division. BIA-OJS has engaged directly with 
tribal leaders to discuss their needs and provide information on CJIS 
programs.
    There have been a number of successes in implementing the TLOA 
information sharing provisions. For example, the Sycuan Tribal Police 
Department's officers, all of whom are commissioned by the Bureau of 
Indian Affairs-Office of Justice Services (BIA) as special deputy 
officers, were approved to access the state's robust law enforcement 
telecommunications system, CLETS--a first in the state of California. 
In FY 2015, BIA-OJS received authority to perform name-based, emergency 
background checks for tribal social service entities that require such 
information for child placement purposes, via federal criminal 
databases housed within the FBI's CJIS Division. BIA-OJS is piloting a 
project wherein tribes may contact BIA-OJS to obtain name based 
criminal history information in exigent circumstances where a 
fingerprint based check is not feasible.
    Section 211(b)(2)(D)(10) provided for BIA-OJS to develop and 
provide dispatch and emergency and E-911 services. BIA-OJS has procured 
state of the art dispatch equipment to integrate communications systems 
and record radio and telephone traffic at 17 direct service agencies. 
Five agencies will be complete by calendar year end with remainder 
complete in calendar 2016. Technical assistance is also provided to 
tribes, when requested, for dispatch, coverage and equipment 
requirements. BIA-OJS also provides tribes with technical assistance in 
acquiring frequencies for tribally operated and owned systems.
    Finally, section 211 of TLOA provided for BIA-OJS to develop an 
annual report of unmet staffing needs of the law enforcement, 
corrections, and tribal court programs. In April of 2013 BIA-OJS 
submitted a report to Congress detailing the allocation and expenditure 
of FY 2010 funds appropriated to the BIA for public safety and justice 
programs, as well as the estimated unmet needs for public safety and 
justice programs. The scope of the April 2013 report was limited to 
tribes providing public safety funding by BIA and agency office 
locations that expended public safety and justice funds to provide 
direct services to tribes. The Department is providing a comprehensive 
update to the April 2013 report which is in the final stages of 
departmental review.
    Section 211 also provided for BIA-OJS to report on: ``the formula, 
priority list or other methodology used to determine the method of 
disbursement of funds for the public safety and justice programs 
administered by the Office of Justice Service.'' To address this part 
of TLOA, a description of the BIA-OJS funding methodology was 
incorporated into the FY 2016 President's Budget Request. Since the 
beginning of the Obama Administration in FY 2008, just over $100 
million in BIA public safety appropriation increases have been 
allocated using this methodology and the resulting impact on violent 
crime in Indian Country shows that with increased resources Tribes are 
able to better protect their communities. Applying programmatic 
expertise and data-driven analysis, our distribution method enables BIA 
to target additional resources to reservations with higher violent 
crime rates and larger service populations, indicators of the severity 
of public safety needs. Additionally, BIA-OJS is currently discussing 
the viability of a tribal advisory group. The advisory group would 
focus on public safety and tribal justice funding, and seek tribal 
perspectives on current funding distribution methods.
Tribal Courts
    BIA-OJS has focused on strengthening Tribal Courts through a number 
of different initiatives. TLOA amended the Tribal Justice Support Act 
which now identifies funding for specific tribal court personnel 
positions through Tribal Justice Systems appropriated funds. To date, 
BIA-OJS has provided funding for: 25 Tribal Judges, 20 Tribal 
Prosecutors, 15 Tribal Defenders, 5 Tribal Guardians ad-Litem and 
provided funding for training and technical assistance for tribal court 
support staff as well as training for litigators in tribal courts.
    Based upon the need to eradicate illegal narcotics in Indian 
Country, BIA-OJS was tasked with the responsibility, in coordination 
with the Attorney General, to ensure that BIA-OJS and tribal law 
enforcement as well as judicial personnel have access to training 
regarding the investigation and prosecution of offenses relating to 
illegal narcotics and alcohol and substance abuse prevention treatment. 
Since 2011, BIA-OJS has conducted 20 Tribal Court Trial Advocacy 
Training sessions which provide hands-on mock trial court training by 
skilled litigators including: federal prosecutors (AUSAs), tribal 
prosecutors (including those cross designated as SAUSAs), as well as 
federal defenders and tribal defenders.
    To date, over 600 tribal court personnel have been trained on 
illegal narcotics and domestic violence prosecution, as well as 
prosecution of sexual assault crimes as identified under TLOA in 
Section 241 and 262. These training sessions include discussions 
regarding the specific TLOA enhanced sentencing provisions. Moreover, 
BIA-OJS is working with the Department of Justice and the 
Administrative Office for U.S. Courts to better coordinate specialized 
training for those tribal court personnel ready to participate in the 
TLOA enhanced sentencing provisions under the Indian Civil Rights Act.
    Since 2011, BIA-OJS has provided over 75 state of the art recording 
devices to tribal courts in an effort to comply with the requirement 
that all tribal courts implementing TLOA must record criminal 
proceedings. Further, BIA-OJS has provided funding allowing tribal 
courts to impose alternative sentences. For example, alcohol ankle 
bracelet monitoring programs have been used to reduce incarceration and 
address the severity of alcohol-related crimes. In 2012, the Lower 
Brule Sioux Tribe in South Dakota reported a 98 percent success rate 
against reoffending in instances where the devices were used. BIA-OJS 
is also coordinating with DOJ and IHS to work on providing training for 
tribal judges on alternative sentencing options.
    Under TLOA, Tribes located in PL 280 states, where jurisdiction is 
the primary responsibility of the State, have the opportunity to 
request the federal government assume concurrent jurisdiction over 
certain crimes on the tribe's reservation. Some Tribes requesting 
concurrent jurisdiction have received tribal court assessments. The 
Department has provided funding to assist those tribal courts with 
addressing infrastructure stability which is essential for enhanced 
sentencing purposes, such as drafting criminal codes and rules of 
evidence, making rules of criminal procedures available to the public, 
providing qualified legal counsel to defendants, employing law trained 
judges and recording any criminal proceedings.
Corrections/Treatment
    TLOA also sets forth requirements to address incarceration and 
substance use disorders in Indian Country. Section 211(b) of TLOA 
directed BIA-OJS to develop a long term plan for tribal detention 
programs.
    To be responsive to this, the BIA published a plan for tribal 
detention programs in August 2011. Additionally, the BIA Corrections 
Handbook, First Edition, was developed and implemented in February of 
2012. The handbook includes detailed policy and procedures that support 
the BIA Detention Guidelines and OJS has implemented these standards 
throughout the years. BIA-OJS continues to provide additional technical 
assistance to Tribes for the start-up and activation of newly 
constructed facilities, negotiating contracts with state and local 
jails for adult and juvenile bed space, inspection and certification 
processes, corrective action plan implementation, and assistance with 
grant applications.
    Section 241 of TLOA identified the need for training on alcohol and 
substance use prevention and treatment and identified a mission of 
eradicating criminal acts caused by alcohol and substance use. In 
response, BIA-OJS created the Diversion and Re-entry Division (DRD) 
within the Tribal Justice Support Directorate. The purpose of the new 
Division was to transform current institutional practices and create 
alternatives to incarceration which build on existing treatment service 
continuums in tribal communities, as well as provide access to long-
term detention-based treatment for all direct-service tribes at Hardin, 
Montana, Yuma, Arizona and Casper, Wyoming. These facilities are 
outstanding treatment and recovery resources for tribes that fill a 
critical need in Indian Country, expanding the overall continuum of 
services directly available to tribes.
    The focus of the BIA-OJS initiative is to effectively braid 
opportunities and services of other federal agencies to address alcohol 
and substance use-related offenses. Importantly, BIA-OJS has worked 
with tribal courts and correctional facilities to administer a 
nationally recognized screening and assessment instrument (GAIN). The 
instrument is currently at three pilot sites and BIA-OJS has provided 
the training needed to administer the instrument. This instrument and 
new protocol for offender placement into service, service engagement 
and preparation for community re-entry services has the potential for 
serving as the cornerstone for linking all human service elements 
within tribal communities onto a common data infrastructure. BIA-OJS 
will generate a detailed analysis and year-end report of the Recidivism 
Reduction Initiative that includes a predictive analysis of the risk 
for offender recidivism, and will serve the need for a common data 
infrastructure within Indian Country.
Conclusion
    Thank you for holding this hearing on the Tribal Law and Order Act 
and for providing the opportunity to discuss what we have done over the 
past five years since TLOA's enactment into law. We will continue to 
work closely with our Tribal, Federal, and State partners to address 
public safety issues in Indian Country and to further fulfill the goals 
of TLOA.
    I am available to answer any questions the Committee may have.

    The Chairman. Thank you very much, Mr. Roberts.
    Next we will hear from Mirtha Beadle, who is the Director, 
Office of Tribal Affairs and Policy, Substance Abuse and Mental 
Health Services Administration, Department of Health and Human 
Services. Thank you for joining us.

STATEMENT OF MIRTHA BEADLE, DIRECTOR, OFFICE OF TRIBAL AFFAIRS 
                AND POLICY, SUBSTANCE ABUSE AND 
          MENTAL HEALTH SERVICES ADMINISTRATION, U.S. 
            DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Ms. Beadle. Thank you, Chairman Barrasso. I also 
acknowledge Ranking Member Tester, who was here, and members of 
the Senate Committee on Indian Affairs. We appreciate the time 
to be here and talk about this very important issue. We agree 
with you that addressing alcohol and substance use is a 
priority.
    I am honored to be here with the vice chairman of the 
Tulalip Tribes. Their community has gone through difficult 
times and we regret their painful losses.
    I am also honored to be here with my colleagues from the 
Department of Interior and the Department of Justice. We have 
collaborated well over the past many years.
    We have in coordination and consultation with tribal 
governments worked to implement the letter and spirit of the 
law focused on Indian alcohol and substance use. I would like 
to highlight a few of the coordinative actions that SAMHSA is 
responsible for and that each of our partner agencies has 
carried out over the past many years. In 2010, SAMHSA 
established the Office of Indian Alcohol and Substance Abuse 
which was subsequently realigned to the Office of Tribal 
Affairs and Policy, which I lead. Establishment of OTAP, as we 
call it, was a demonstration that SAMHSA believes that tribal 
affairs is very important. We are the point of contact for 
tribal governments, Federal agencies and others who want to 
work on Indian alcohol and substance use issues.
    As a component of OTAP, the Office of Indian Alcohol and 
Substance Abuse has greater reach across SAMHSA's centers, 
which it did not have previously. OIASA has engaged on tribal 
policy and consultation efforts, which was more restricted 
under the prior structure.
    OIASA has served as a very important engine for advancing 
collaboration across the Federal partners and sustaining those 
efforts to support TLOA. I want to acknowledge Dr. Marcella 
Ronyak, who is the OIASA director, and is here with me today.
    One of the requirements under TLOA was to establish a 
framework for coordinating the Federal partners, which includes 
specifically SAMHSA, the Indian Health Service, the Bureau of 
Indian Affairs, Bureau of Indian Education and the Department 
of Justice. Our Federal partners created committees and work 
groups and identified 12 specific responsibilities to support 
the requirements of the Act.
    I will give you a couple of examples of the 
responsibilities. They include assessing the scope of Indian 
alcohol and substance abuse problems and developing an 
inventory of resources. There was not an inventory of what 
tribes had available to support their activities such as 
supporting tribal action planning to coordinate activities at 
the local level; sharing exemplary programs that tribes could 
actually model in their communities; providing training where 
it didn't occur; compiling data, and lots of other activities.
    I do want to highlight some of the progress that we have 
made in the coordinative efforts. The first is really critical 
to the work that is required under TLOA. That is, we have 
developed and are completing a multi-agency comprehensive 
report on the scope of Indian alcohol and substance abuse 
problems. What is tremendous about this effort is that we have 
eight Federal departments and agencies, the first time it has 
happened, that have come together and shared their data to 
provide an indication of the scope of the problems.
    The data that we have gathered, that we are putting 
together, comes from SAMHSA, the Indian Health Service, Bureau 
of Indian Education, Bureau of Indian Affairs, the Centers for 
Disease Control and Prevention, the National Institutes of 
Health, the Centers for Medicare and Medicaid Services, and 
also the Department of Justice. So it is a massive piece of 
undertaking in terms of identifying all these data sets that 
will help us get a better sense of that. We expect to release a 
report in early 2016.
    We have also provided tribes extensive amounts of support 
in technical assistance for planning, for community healing, 
for training, all the kinds of things that tribes need to be 
able to support the work. We also were required to develop 
opportunities for sharing information, so we have done that. We 
have an implementation website where we post a host of 
information around these issues.
    One of the things we were required to do was to develop an 
inventory. The last inventory that we developed had over 70 
federally-sponsored education and alcohol and substance 
prevention programs. Tribes now have access to information 
about programs that they did not have in the past.
    TLOA also required sharing exemplary programs. We have 
developed what is called the Prevention and Recovery Newsletter 
that provides information on Federal programs and other 
programs. Over the past four years, we have published 14 
different issues that have been downloaded over 200,000 times. 
In the past, we have also done a lot of training on tribal 
action planning. We have reached 44 tribes, almost 400 tribal 
participants and we have also made available data through the 
web and other means.
    I have to say that SAMHSA is also trying to align its work 
with tribal communities through its programming. In fiscal year 
2014, Congress appropriated $5 million to support the new 
Tribal Behavioral Health Grant, which is critical to the work 
of TLOA. In fiscal year 2016, in the President's budget there 
is $30 million for the Tribal Behavioral Health Grant program. 
That supports mental health promotion and substance abuse 
prevention for tribal youth and their families. It enhances 
early detection of mental health and substance abuse disorders 
and also increases referral to treatment, which is what we are 
looking to do.
    So I want to thank you for the opportunity to share this 
information with you and look forward to your questions.
    [The prepared statement of Ms. Beadle follows:]

Prepared Statement of Mirtha Beadle, Director, Office of Tribal Affairs 
and Policy, Substance Abuse and Mental Health Services Administration, 
              U.S. Department of Health and Human Services
    Chairman Barrasso, Ranking Member Tester, and members of the Senate 
Committee on Indian Affairs, thank you for inviting me to testify at 
this important hearing on the implementation of the Tribal Law and 
Order Act of 2010 (TLOA). I am pleased to testify along with colleagues 
from the Department of Interior (DOI) and Department of Justice (DOJ). 
Substance use is one of the most severe public health and safety 
problems facing American Indian and Alaska Native (AI/AN) individuals, 
families, and communities, and we must continue to work together to 
diminish the devastating social, economic, physical, mental, and 
spiritual consequences.
    TLOA amended the Indian Alcohol and Substance Abuse Treatment Act 
of 1986 (Pub. L. 99-570). The amendments called for the Substance Abuse 
and Mental Health Services Administration (SAMHSA) to establish an 
office tasked with improving coordination among the federal agencies 
and departments responsible for combating alcohol and substance use 
disorders among the AI/AN population. \1\ TLOA also instructs the 
Department of Health and Human Services (HHS) to collaborate with DOI 
and DOJ on determining the scope of ongoing problems; identifying 
resources and programs that would be relevant to combating alcohol and 
substance use disorders in tribal communities; and coordinating 
existing agency programs. Today, I am pleased to share with you the 
myriad ways in which SAMHSA, along with its federal partners and in 
coordination and consultation with tribal governments and 
organizations, is implementing the letter and spirit of the TLOA 
amendments.
---------------------------------------------------------------------------
    \1\ While the TLOA refers to alcohol and substance use among the 
AI/AN population, alcohol is a powerful substance itself. Given this 
distinction, this testimony will discuss this issue in terms of the 
prevention of alcohol and drug use and treatment of alcohol and 
substance use disorders.
---------------------------------------------------------------------------
Office of Indian Alcohol and Substance Abuse
    As required by TLOA, SAMHSA established the Office of Indian 
Alcohol and Substance Abuse (OIASA) in 2010. OIASA was originally 
established within the Center for Substance Abuse Prevention, and in 
2015 was realigned as a component of SAMHSA's new Office of Tribal 
Affairs and Policy (OTAP). SAMHSA's OTAP serves as the primary point of 
contact for tribal governments, tribal organizations, Federal 
departments and agencies, and other governments and agencies on 
behavioral health issues facing AI/AN populations. The creation of OTAP 
brought together SAMHSA's tribal affairs, tribal policy, tribal 
consultation, tribal advisory, and Tribal Law and Order Act (TLOA) 
responsibilities to improve agency coordination and achieve meaningful 
progress. As a component of OTAP, OIASA has greater reach across 
SAMHSA's centers and offices and is fully engaged in tribal policy and 
consultation efforts.
    I'm pleased to mention that Marcella Ronyak, the OIASA Director, is 
at the hearing with me today. OIASA has three additional staff 
positions, including a permanent Indian Youth Programs Officer. To 
date, OIASA, along with our Federal partners--Indian Health Service 
(IHS), DOI, and DOJ--the Indian Alcohol and Substance Abuse 
Interdepartmental Coordinating Committee (IASA Committee) has served as 
a point of contact for Indian Tribes with respect to the implementation 
of TLOA and finalized the Indian Alcohol and Substance Abuse Memorandum 
of Agreement as a framework for coordinating the resources and programs 
of SAMHSA, IHS, DOI, and DOJ, as directed by TLOA.
IASA Committee
    For the past four years, the IASA Committee has served as an 
interagency forum for Federal partners to collaboratively work to 
support AI/AN communities in achieving their goals in the prevention, 
intervention, and treatment of alcohol and substance use disorders. The 
committee is composed of representatives from Federal agencies with 
responsibilities for addressing the consequences of alcohol and drug 
use in Indian Country, including SAMHSA, IHS, DOI's Bureau of Indian 
Affairs (BIA) and Bureau of Indian Education (BIE), and DOJ. The 
Director of OIASA serves as the Committee Chairperson. In addition, the 
Administration for Children and Families (ACF), Centers for Disease 
Control and Prevention (CDC), Centers for Medicare and Medicaid 
Services (CMS), Health Resources and Services Administration (HRSA), 
and National Institutes of Health (NIH)--all within HHS--and the White 
House Office of National Drug Control Policy (ONDCP) are invited to 
attend IASA Committee meetings.
    The IASA Committee work has and continues to focus on: (1) 
determining the scope of Indian alcohol and substance use problems; (2) 
advancing development of comprehensive tribal action planning; (3) 
identifying opportunities and programs relevant to alcohol and drug use 
among Tribal communities; (4) sharing information on practices, 
programs, and resources through the Prevention and Recovery Newsletter; 
and (5) addressing issues of concern to Tribes related to alcohol and 
drug use. The IASA Committee includes seven workgroups: (1) Memorandum 
of Agreement (MOA); (2) Tribal Action Plan; (3) Inventory/Resources; 
(4) Communications; (5) Native Youth Educational Services; (6) Data; 
and (7) Minimum Program Standards. Recently, the IASA Committee voted 
to establish a Public Safety and Health Workgroup to further enhance 
collaborations and actions related to re-entry services specific to 
youth regional treatment and detention centers, model juvenile code, 
and implementation of law enforcement and judicial personnel training, 
among other MOA responsibilities. Each of the workgroups is chaired by 
a TLOA Federal partner agency.
Memorandum of Agreement (MOA)
    In fiscal year (FY) 2015, the MOA Workgroup initiated a significant 
effort to unify the TLOA and Indian Health Care Improvement Act (IHCIA) 
MOAs. Both MOAs address Indian alcohol and substance use and engage 
similar Federal partners in accomplishing requirements. The purpose of 
the unification effort is to identify areas of overlap and similarity 
between the two agreements and pave the way for greater coordination 
across Federal agencies. The MOA Workgroup is co-chaired by DOJ and 
IHS. OTAP developed background documents and an initial draft of a 
unified TLOA and IHCIA MOA for consideration. MOA Workgroup 
representatives have provided important input and recommendations not 
only for unifying the TLOA and ICHIA MOAs but also for streamlining and 
clarifying existing processes. Moving forward, the MOA Workgroup will 
provide leadership in the required annual review of the MOA.
Tribal Action Planning (TAP)
    A primary focus of the IASA Committee is to advance comprehensive 
tribal action planning so that tribes can identify resources, 
priorities, and design a systems approach to treating alcohol and 
substance use disorders and their co-occurring conditions. The intent 
of coordinated Federal TAP is to provide guidance, direction, 
coordination, and improved access for tribes to appropriate Federal 
resources that may assist them in developing and implementing tribal 
action plans. The TAP Workgroup coordinates support for tribes that 
choose to develop a TAP to prevent and treat alcohol and substance use 
disorders. The Workgroup has established a protocol for tribal requests 
for assistance and works with partner agency regional staff to 
coordinate assistance and resources for tribes in their areas.
    In FY 2015, Tribal Action Plan trainings were held in four 
different geographic areas, reaching 44 tribes and 372 tribal 
participants. SAMHSA is leading the effort, in collaboration with 
Federal partners, to develop a new TAP strategy to advance 
comprehensive tribal action planning.
Engagement and Outreach on Indian Alcohol and Substance Abuse Issues
    Within SAMHSA, OIASA has actively engaged with staff from the 
Center for Substance Abuse Prevention, Center for Substance Abuse 
Treatment, the Center for Mental Health Services, and the Center for 
Behavioral Health Statistics and Quality. OIASA also has provided 
updates and sought advice from the SAMHSA Tribal Technical Advisory 
Committee, which is composed of 14 elected/appointed tribal leaders.
    Reaching far and wide to the tribal community, OIASA staff and I, 
as the OTAP Director, have attended, presented, and participated in 
tribal consultations and meetings in partnership with DOI, DOJ and IHS 
staff and leadership. OIASA also conducted outreach to national AI/AN 
organizations, such as the National Indian Health Board (NIHB), the 
National Congress of American Indians (NCAI), and the National Council 
of Urban Indian Health (NCUIH). In addition, OIASA has engaged with AI/
AN stakeholders including Tribal Epidemiology Centers and tribal 
behavioral health staff.
    SAMHSA's efforts to address alcohol and substance use are supported 
through several technical assistance (TA) centers and providers. The TA 
centers most pertinent to supporting alcohol and substance use 
prevention in AI/AN communities include:

  <bullet> The Tribal Training and Technical Assistance Center, which 
        provides TA on an array of tribal behavioral health and 
        wellness needs and is the primary TA provider for tribal action 
        planning;

  <bullet> The National AI/AN Addiction Technology Transfer Center, 
        which supports substance use disorder and other training to 
        behavioral health providers and individuals from tribal 
        communities; and

  <bullet> The National Native Children's Trauma Center, which provides 
        trainings and consultations to community agencies, tribal 
        programs, clinicians, school personnel, technicians, and 
        families on the impacts and prevention of childhood traumatic 
        stress.

    OIASA and Federal partners have actively worked to share 
information about programs and resources on alcohol and substance use 
prevention, intervention, and treatment with tribes and tribal 
organizations. The primary modalities are published on the TLOA 
Implementation website (http://www.samhsa.gov/tloa/) and Prevention and 
Recovery Newsletter. The website includes resources for developing 
tribal action plans, addressing issues faced by Native youth, and an 
inventory of Federal resources that may benefit tribes. The inventory 
was specifically developed in response to TLOA and includes over 70 
Federally-sponsored education and alcohol and substance use prevention 
support programs; funding opportunity interactive links subdivided by 
HHS, DOI, and DOJ agencies and TLOA-related topics (i.e., public 
safety, justice systems and alcohol and substance use, corrections and 
correctional alternatives, violence against women, juvenile justice); 
and, links to grant and contract resources. Over the past four years, 
Federal partners have published 14 issues of the Prevention and 
Recovery Newsletter, which has been downloaded over 200,000 times.
SAMHSA Grant Program Alignment with TLOA
    SAMHSA has made addressing the behavioral health of American 
Indians and Alaska Natives a priority. In FY 2014, Congress 
appropriated $5 million to support the new Tribal Behavioral Health 
Grant (TBHG) program. With this funding, SAMHSA funded 20 tribes or 
tribal organizations. Grantees such as the Selawik Village Council in 
Alaska, the Turtle Mountain Band of Chippewa Tribe in North Dakota, and 
the Pueblo of Nambe in New Mexico plan to incorporate evidence-based, 
culture-based, and practice-based strategies for tribal youth. Grantees 
are required to work across tribal suicide prevention, mental health, 
substance use prevention, and substance use disorder treatment programs 
to build positive behavioral health among youth. Grantees connect 
appropriate cultural practices, intervention services, care, and 
information with families, friends, schools, educational institutions, 
correctional systems, substance use programs, mental health programs, 
foster care systems, and other support organizations for tribal youth. 
Technical assistance is provided to grantees through SAMHSA's Tribal 
Technical Assistance Center to support their ability to achieve their 
goals.
    The President's FY 2016 Budget for the TBHG program is $30 million, 
including $15 million in the Mental Health appropriation and $15 
million in the Substance Abuse Prevention appropriation. This 
represents an increase over the FY 2015 Enacted Level of $10 million in 
the Mental Health appropriation and $15 million for a newly established 
line in the Substance Abuse Prevention appropriation. This funding 
supports Generation Indigenous, an initiative focused on removing 
possible barriers to success for Native youth. This initiative takes a 
comprehensive, culturally appropriate approach to help improve the 
lives and opportunities for Native youth. In addition to HHS, multiple 
departments, including the Departments of Interior, Education, Housing 
and Urban Development, Agriculture, Labor, and Justice, are working 
collaboratively with tribes to address issues facing Native youth. The 
FY 2016 Budget allows SAMHSA to expand activities that are critical to 
preventing substance use and promoting mental health and resiliency 
among youth in tribal communities.
    The additional funding would expand the TBHG program to 
approximately 103 additional tribes and tribal entities. With the 
expansion of the TBHG program, SAMHSA aims to reduce substance use and 
the incidence of suicide attempts among tribal youth and to address 
behavioral health conditions which impact learning in Bureau of Indian 
Education-funded schools. The TBHG program will support mental health 
promotion and substance use prevention activities for high-risk tribal 
youth and their families, enhance early detection of mental and 
substance use disorders among tribal youth, and increase referral to 
treatment.
Conclusion
    Thank you again for this opportunity to share with you the 
extensive efforts SAMHSA and its Federal partners are undertaking, in 
collaboration with the AI/AN community, in order to implement TLOA, and 
to reduce the impact of alcohol and drug use on AI/AN communities. I 
would be pleased to answer any questions that you may have.

    The Chairman. Thank you so much for your testimony.
    Next we will hear from Mr. Tracy Toulou, who is the 
Director of the Office of Tribal Justice, United States 
Department of Justice. Thanks for joining us.

STATEMENT OF TRACY TOULOU, DIRECTOR, OFFICE OF TRIBAL JUSTICE, 
                   U.S. DEPARTMENT OF JUSTICE

    Mr. Toulou. Thank you, Chairman Barrasso, members of the 
Committee. I am honored to appear before you to discuss the 
implementation efforts of the Department of Justice to fulfill 
our responsibilities as established in the Tribal Law and Order 
Act of 2010.
    The Department of Justice views tribes as partners in 
ensuring public safety in Indian Country and is committed to 
maximizing tribal control over tribal affairs. It is our belief 
the challenges faced by tribes are generally best met by tribal 
solutions. In support of this commitment and our government-to-
government relationship with tribes, the Department of Justice 
has worked to fulfill its responsibilities under the Tribal Law 
and Order Act in a way that will ultimately empower tribes to 
operate with more autonomy.
    For example, in order to support law enforcement activity 
by tribal officials in Indian Country, tribes require access to 
law enforcement data bases. Under the Tribal Law and Order Act, 
the Department of Justice must ensure that tribal officials 
have access to national crime information data bases.
    Recently, the Department launched a comprehensive access 
program based on feedback from tribes and lessons learned from 
our earlier efforts in this area. The DOJ Tribal Access Program 
for National Criminal Information Databases, which we often 
refer to as TAP, was announced in August of 2015. The TAP 
program has selected 10 tribal participants to help provide 
user feedback on the training, technical assistance and 
equipment associated with the program. One of those 10 tribes 
is the Tulalip Tribe.
    Early responses have been very positive and it is our 
intention to eventually make this program available to any 
interested tribe.
    The TAP program was a result of a 2014 working group which 
consisted of representatives from the Department of Justice and 
the Department of the Interior. From the same close 
collaboration, the Department partnered with Interior's Bureau 
of Indian Affairs in a second program entitled Purpose Code X, 
which gives tribal officials the ability to perform 24-hour 
immediate name-based criminal history record checks. This is a 
crucial capability for tribal officials seeking emergency 
placement of children in Indian Country.
    The provision of high-quality training to tribal 
representatives has been an area of increased activity within 
the Department since passage of the Tribal Law and Order Act. 
For example, the FBI has partnered with BIA to provide joint 
training that will focus on the investigation of matters common 
to Indian Country, such as domestic violence, child abuse, 
violent crime, human trafficking and drug trafficking.
    One of the most meaningful displays of the Department's 
commitment to the government-to-government relationship with 
tribes is our efforts to cross-deputize tribal law enforcement 
officials. The tribal Special Assistant U.S. Attorney program, 
the SAUSA program, enables tribal prosecutors to bring cases in 
Federal court. This program has grown considerably since 
passage of the Tribal Law and Order Act. To date, there are 25 
SAUSAs representing 23 tribes.
    In addition to the SAUSA program, DOJ investigative 
agencies have cross-deputized tribal law enforcement officers. 
For example, the FBI has deputized 85 tribal law enforcement 
officers as part of the Safe Trails task forces, working to 
combat violent crime, drugs and gangs in Indian Country.
    Moving on to another section of the Tribal Law and Order 
Act, the Bureau of Prisons fulfilled the key provision to 
accept certain tribal offenders sentenced in tribal courts for 
placement in BOP facilities. In addition to increasing access 
to critical programs and treatment, the pilot program 
facilitated tribes' ability to exercise enhanced sentencing 
under the Tribal Law and Order Act. The pilot program was by 
all accounts a success, and both tribes and the Department 
would be supportive of necessary congressional action to 
reauthorize this program.
    In parallel to our external efforts, the Department has 
made a number of internal changes to ensure our revamped 
presence in Indian Country is long-lived. For example, the U.S. 
Attorneys offices with Indian Country and the districts play a 
primary role in our interaction with tribes. Now every U.S. 
Attorney's office whose district includes Indian Country or a 
federally-recognized tribe has at least one tribal liaison, and 
some districts have more than one.
    To further enhance communications with the tribes, U.S. 
Attorneys' offices are required now to hold annual 
consultations with all the tribes in their district. The 
Department of Justice has made progress over the past five 
years in bolstering our government-to-government relationships 
with tribes. We recognize that there is significant work still 
to be done to live up to our responsibilities in Indian Country 
and we are committed to seeing this work through.
    We appreciate Congress' efforts to foster public safety and 
look forward to working closely with our partners in Indian 
Country to fulfill and honor our responsibilities. I will be 
happy to answer any questions you may have.
    [The prepared statement of Mr. Toulou follows:]

Prepared Statement of Tracy Toulou, Director, Office of Tribal Justice, 
                       U.S. Department of Justice
    Chairman Barrasso, Vice-Chairman Tester, and Members of the 
Committee:
    I am honored to appear before you to discuss the implementation 
efforts of the Department of Justice (the Department, or DOJ) to 
fulfill our responsibilities as established in the Tribal Law and Order 
Act of 2010 (TLOA) and, ultimately, to improve public safety in Indian 
country. In introducing this Act in April 2009, Chairman Dorgan 
illuminated some of the hard realities faced by tribes in modern times, 
including: astonishingly high rates of violence, criminal exploitation 
of complex and sometimes confusing jurisdiction, and crippling 
limitations on the legal authorities of tribal governments to ensure 
safety on their lands. The introduction of TLOA included a charge to 
the federal government to provide tribal governments with the tools 
they need to better protect their communities, to live up to our treaty 
and trust obligations, and to be more accountable for our efforts to 
enhance public safety in Indian country. Thank you for the opportunity 
to provide an overview of the Department's efforts over the past five 
years to fulfill our responsibilities under this Act and honor our 
broader obligations to Indian country.
    In October 2009, the Department held a listening session with 
tribal leaders to help guide and inform the Department's policies, 
programs, and activities affecting Indian country going forward. Our 
leadership recognized the need to swiftly and meaningfully improve our 
contributions to public safety in Indian country, and as a result of 
this listening session, launched a Department-wide initiative to 
enhance public safety in Indian country, which is ongoing. With the 
passage of TLOA in July 2010, the Department's initiative expanded to 
absorb new responsibilities and assumed a renewed sense of urgency. Our 
work to enhance public safety has been, and continues to be, shaped by 
our commitment to empower tribal governments; to improve coordination 
and collaboration at the federal, tribal, state, and local levels; and 
to be appropriately accountable for the work we do.
Empowering Tribal Governments
    The Department views tribes as partners in ensuring public safety 
in Indian country and is committed to maximizing tribal control over 
tribal affairs. It is our belief, informed by experience, that 
challenges faced by tribes are generally best met by tribal solutions. 
In support of this commitment, and the government-to-government nature 
of our relationships with tribes, the Department has worked to fulfill 
its responsibilities under TLOA in a way that will ultimately empower 
tribes to operate with more autonomy.
    In order to support law enforcement activity by tribal officials in 
Indian country, tribes require access to law enforcement databases. 
Under TLOA, the Department must ensure that tribal law enforcement 
officials have access to national crime information databases. The 
ability of tribes to fully engage in national criminal justice 
information sharing via state networks, which are the long-time conduit 
for such activities, has been dependent upon regulations, statutes, and 
policies of the states that may not consistently enable tribal 
participation. In order to improve access for tribes, the Department 
has established two new programs and partnered on a third.
    First, the Justice Telecommunications System (JUST) program, which 
was launched in 2010, provided participating tribes with access to the 
National Crime Information Center (NCIC). This program is ongoing and 
currently serves 23 tribes. This program, as well as the other two 
programs to improve data base access, were the result of on-going, 
substantive dialog with tribal governments and law enforcement.
    Second, the Department recently launched a more comprehensive 
access program based on feedback from tribes and lessons learned from 
the JUST program: the DOJ Tribal Access Program for National Crime 
Information (TAP). The TAP program, first announced in August 2015, is 
designed to provide access to CJIS services, including: Next Generation 
Identification (NGI); National Data Exchange (N-DEx); Law Enforcement 
Enterprise Portal (LEEP); National Crime Information Center (NCIC); 
National Instant Criminal Background Check System (NICS); and Nlets, 
the International Justice and Public Safety Network. Nlets is an 
interstate public safety network for the exchange of law enforcement, 
criminal justice, and public safety information owned by the states. 
Nlets supports inquiry into state databases, such as motor vehicle, 
driver's license, and criminal history, as well as inquiry into several 
federal databases, such as DEA's Drug Pointer Index, ICE's Law 
Enforcement Support Center, and FAA's Aircraft Registration, and 
Canada's Canadian Police Information Center. With funding from the 
Office of Justice Programs' (OJP) Office of Sex Offender Sentencing, 
Monitoring, Apprehending, Registering, and Tracking (SMART), the TAP 
program has selected ten tribal participants to help provide user 
feedback on the training, technical assistance, equipment, and 
maintenance of this program. Early feedback has been very positive, and 
it is our intention to eventually make this program available to any 
interested tribe. We will continue to work with Congress for additional 
funding to more broadly deploy the program.
    The TAP Program was the result of a 2014 working group, which 
consisted of representatives from the Departments of Justice and the 
Interior. From this same close collaboration, the Department partnered 
with Interior's Bureau of Indian Affairs Office of Justice Services 
(BIA-OJS) in a third program known as ``BIA Purpose Code X,'' which 
gives tribes the ability through BIA-OJS to perform emergency name-
based background checks for child placement purposes This is a crucial 
capability for tribal social service agencies seeking emergency 
placement of children in Indian country.
    The Department of Justice has increased its efforts to support 
tribal governments that are exercising expanded sentencing authority 
rooted in TLOA. While TLOA properly does not require the Department to 
review or certify a tribe's use of enhanced felony sentencing authority 
or the status of a tribe's efforts to amend its codes and court 
processes to provide defendants with the due process protections 
described in TLOA, we have taken steps to help ensure that tribes 
interested in exercising enhanced sentencing authority have knowledge 
of and access to relevant resources. For example, OJP's Bureau of 
Justice Assistance's Tribal Civil and Criminal Legal Assistance Program 
has provided training and technical services to support tribal civil 
and criminal legal procedures, legal infrastructure enhancements, 
public education, and the development and enhancement of tribal justice 
systems. More specifically, training and technical services have 
included the following: indigent legal defense services; civil legal 
assistance; public defender services; and strategies for the 
development and enhancement of tribal court policies, procedures, and 
codes.
    The provision of high-quality training to tribal representatives 
has been an area of increased activity within the Department since the 
passage of TLOA. The Department believes that ensuring access to 
quality training is a necessary element to bolstering tribal autonomy. 
In July 2010, the Executive Office of U.S. Attorneys (EOUSA) launched 
the National Indian Country Training Initiative (NICTI) to ensure that 
federal prosecutors and agents, as well as state and tribal criminal 
justice personnel, receive the training and support needed to address 
the particular challenges relevant to Indian country prosecutions. 
Importantly, the Department covers the costs of travel and lodging for 
tribal attendees at classes sponsored by the NICTI. This allows many 
tribal criminal justice officials to receive cutting-edge training from 
national experts at no cost to the student or tribe. The NICTI has 
sponsored approximately 75 training courses, and reached over 200 
tribal, federal, and state agencies.
    Additionally, the Federal Bureau of Investigation (FBI) announced a 
forthcoming training course to be held at the FLETC campus in Artesia, 
New Mexico. Jointly taught by FBI and BIA ``mentors'' and FLETC common 
core instructors, the course will include instruction in forensic 
evidence collection and preparatory instruction on investigations 
common to Indian country, such as domestic violence, child abuse, 
violent crimes, human trafficking, and drug trafficking. This course 
will be held four times each year, with a total of 24 students in each 
session. This course, the result of collaboration between FBI, BIA, and 
FLETC, was developed out of a recognized need to train federal and 
tribal law enforcement officers together. Another recent training was 
held by DOJ's Drug Enforcement Administration (DEA). In September 2015, 
the National Native American Law Enforcement Association held a 
collaborative training event where the DEA provided on-site training on 
clandestine lab awareness for first responders, emerging technologies, 
and money laundering. The training included federal, state, local, and 
tribal partners with Indian country responsibility.
    One of the most meaningful displays of the Department's commitment 
to a government-to-government relationship with tribes is in our 
efforts to cross-deputize tribal law enforcement officials. In doing 
so, we not only expand their authorities, but we send an important 
message that we are partners and allies with tribes in our collective 
efforts to enhance public safety in Indian country. The Special 
Assistant U.S. Attorney (SAUSA) Program was developed prior to the 
passage of TLOA to train tribal prosecutors in federal criminal law, 
procedure, and investigative techniques to increase prosecutions in 
federal court, tribal court, or both. The program enables tribal 
prosecutors to bring cases in federal court and to serve as co-counsel 
with federal prosecutors on felony investigations and prosecutions of 
offenses originating in tribal communities. The program has grown 
considerably since the passage of TLOA. To date, there are 25 SAUSAs 
representing 23 tribes. In addition to the SAUSA program, DOJ 
investigative agencies have cross-deputized tribal law enforcement 
officers through joint task forces. For example, the FBI has deputized 
85 tribal law enforcement officers as part of the Safe Trails Task 
Forces. There are currently 15 active Safe Trails Task Forces located 
around the country, working to combat violent crime, drugs, gangs, and 
gaming violations.
    In 2014, the Bureau of Prisons (BOP) fulfilled a key provision of 
TLOA by accepting certain tribal offenders sentenced in tribal courts 
for placement in BOP institutions. The pilot program allowed any 
federally-recognized tribe to request that the BOP incarcerate a tribal 
member convicted of a violent crime under the terms of Section 234 of 
TLOA and authorized the BOP to house up to 100 tribal offenders at a 
time, nationwide.
    A fundamental goal of the BOP is to reduce future criminal activity 
by encouraging inmates to participate in a range of programs that have 
been proven to help them adopt a crime-free lifestyle upon their return 
to the community. Through the pilot program, tribal offenders have 
access to the BOP's many self-improvement programs, including work in 
prison industries and other institution jobs, vocational training, 
education, treatment for substance use disorders, classes on parenting 
and anger management, counseling, religious observance opportunities 
and other programs that teach essential life skills. BOP has also 
ensured that there are culturally-appropriate offerings for native 
inmates. In addition to increasing access to critical programs and 
treatments, the pilot program facilitated tribes' ability to exercise 
enhanced sentencing authority under TLOA, which is an important 
indication of support for tribal sovereignty. The pilot program was, by 
all accounts, a success, and both tribes and the Department would be 
supportive of necessary Congressional action to reauthorize this 
program.
    An important part of our support to tribes is necessarily tied to 
funds. The Department launched the Coordinated Tribal Assistance 
Solicitation (CTAS) in 2010, as a response to tribes' request for 
increased flexibility. Through CTAS, tribes and tribal consortia are 
able to submit a single application to apply for a broad range of DOJ 
tribal grant programs. Through CTAS, the Department has awarded over 
1,400 grants totaling more than $620 million. Over time, we have 
refined this solicitation to enable tribes to take a truly 
comprehensive approach to improving public safety in tribal 
communities. Under TLOA, the Department was required to offer specific 
grants for delinquency prevention and response, and to include 
dedicated funding for regional information sharing. To date, we have 
awarded more than $44 million in support of tribal youth programs and 
more than $108 million to support regional information sharing systems. 
The Department continually seeks feedback from tribes on ways to 
improve CTAS, and each year with our solicitation announcement we also 
communicate steps we have taken during the previous year to improve the 
process. The most recent solicitation was released on November 19, 
2015, with an application deadline of February 23, 2016. It 
incorporates a number of changes, including the elimination of certain 
eligibility requirements, broadening allowable activities, and 
extending the award period for certain grants. Each year, the intention 
is to increase the accessibility and usefulness of CTAS grants.
    In parallel to our outward-facing efforts, the Department has made 
a number of internal structural changes to ensure our revamped presence 
in Indian country is long-lived.
Evolution of Agency Infrastructure
    To ensure that the day-to-day operations at the Department are 
supportive of the policy and programmatic changes we have made since 
the passage of TLOA, we have made a number of internal adjustments 
across the Department, from headquarters to field offices. The intent 
in making these changes was to absorb the principles that drive the 
TLOA and our response to that Act, thus integrating them into the way 
we do business at the Department. Indeed, although not a direct 
response to TLOA, the Department issued Attorney General Guidelines 
Stating Principles for Working with Federally Recognized Tribes 
(Statement of Principles) in December 2014 to guide and inform all of 
the Department's interactions with federally-recognized tribes. This 
Statement of Principles serves as a point of reference for Department 
employees and, importantly, a standard to which tribes can hold the 
Department accountable.
    In 1995, then-Attorney General Janet Reno established the Office of 
Tribal Justice (OTJ). OTJ has operated continuously since then, 
although it was not made permanent until the passage of TLOA. On 
November 17, 2010, less than four months after TLOA's enactment, the 
Department published in the Federal Register a final rule that 
established OTJ as a permanent, standalone component of the Department. 
My office serves as a principal point of contact in the Department for 
federally-recognized tribes, provides legal, policy, and programmatic 
advice to the Attorney General with respect to the treaty and trust 
relationship between the United States and Indian tribes, promotes 
internal uniformity of Department policies and litigation positions 
relating to Indian country, and coordinates with other Federal agencies 
and with State and local governments on their initiatives in Indian 
country.
    The U.S. Attorneys' Offices with Indian country in their districts 
play a primary role in our interactions with tribes. U.S. Attorneys' 
Offices often are the nexus of activity when federal involvement on 
reservations is necessary, from investigations to prosecutions to 
providing services to victims. Every U.S Attorney's Office, whose 
district includes Indian country or a federally-recognized tribe, has 
at least one Tribal Liaison, and some districts have more than one. 
Along with the TLOA-driven requirement that each relevant office 
appoint a Tribal Liaison, the U.S. Attorneys are required to hold 
annual consultations with tribes in their districts. In order to assist 
the U.S. Attorney's Offices and the Attorney General's Advisory 
Committee's Native American Issues Subcommittee, as well as to serve as 
a liaison to other DOJ components, the Executive Office for U.S. 
Attorneys formally established the position of Native American Issues 
Coordinator.
    These changes to the structure of the Department were driven by the 
Department's support for and fulfillment of its responsibilities under 
TLOA. There have been a series of policy shifts that are not a direct 
response to the Act but are in keeping with the spirit of that 
legislation. For example, the issuance of the DOJ Statement of 
Principles, discussed earlier, marks an important shift in our approach 
at all levels of the Department to interacting with tribes. Similarly, 
the DOJ Consultation Policy is based on three guiding principles: that 
the Department must engage with tribal nations on a government-to-
government basis; that tribal sovereignty and Indian self-determination 
are now, and must always be, the foundations of every policy or 
program; and that communication and coordination with our tribal 
partners, among federal agencies, and with our state and local 
counterparts are essential to accountability and to success.
Greater Accountability
    Accountability is a critical element in a true partnership, and the 
Department has taken a number of steps to increase our accountability 
to tribes. The TLOA-mandated reports were intended to promote greater 
transparency of Department activities in Indian country, and the 
process of responding has been a useful exercise for our agency to 
scrutinize trends and patterns of activity. In some cases, the reports 
have revealed a need to expand our agency response to meet specific 
needs and organize our resources more effectively, such as those 
related to long-term detention. In other cases, the reporting process 
highlighted positive impacts that Department activity has had in Indian 
country over time and a need to perpetuate beneficial initiatives, such 
as the BOP pilot program report and the Office of Community Oriented 
Policing Services (COPS) Report. In tracking prosecutions and crime 
data, the Department has benefitted from taking a focused look at our 
response to trends in Indian country, and as a result is in a better 
position to adjust our resources internally to address emerging trends 
and issues.
    The Department has made progress over the past five years in 
bolstering our government-to-government relationship with tribes and in 
honoring our treaty and trust obligations. We are all fully cognizant 
that there is significant work still to be done to live up to our 
responsibilities in Indian country, and we are committed to seeing this 
work through. We appreciate Congress' efforts to foster public safety, 
and look forward to working closely with our partners in Indian country 
to fully honor our responsibilities. I will be happy to answer any 
questions you may have.

    The Chairman. Thank you very much, Mr. Toulou. Next we are 
going to turn to the Honorable Glen Gobin, who is the Vice 
Chairman of the Tulalip tribes of Washington State. Thank you 
for joining us.

STATEMENT OF HON. GLEN GOBIN, VICE CHAIRMAN, TULALIP TRIBES OF 
                           WASHINGTON

    Mr. Gobin. Good afternoon, Chairman Barrasso. I would like 
to also recognize Vice Chairman Tester for his presence 
earlier, and also recognize our Senator, Senator Cantwell, and 
Committee members.
    Again, my name is Glen Gobin. I am the Vice Chairman of 
Tulalip Tribes. I would like to thank you for the opportunity 
to testify on the Tribal Law and Order Act and its effects on 
the criminal justice system in Indian Country. First, we thank 
the Committee for supporting the Tribal Law and Order Act in 
2010 in an effort to better address crime in Indian Country.
    In the last decade, after Tulalip retroceded criminal 
jurisdiction from Washington State, our justice system has 
expanded into a comprehensive system which includes a full 
service police department, a court system with prosecutors, 
probation officers and public defenders. The tribal police 
department is the primary law enforcement within the 
reservation.
    Incidents range from simple misdemeanors to major crimes. 
In 2015, thus far, tribal police have made a total of 835 
arrests.
    After the passage of the Act, Tulalip amended its criminal 
code to increase sentencing authority for major felony crimes. 
Under these guidelines, Tulalip has filed approximately 33 
charges carrying a sentence of more than a year.
    In 2014, Tulalip participated in the VAWA special domestic 
violence court jurisdiction pilot project. Today, we continue 
to prosecute non-Natives for domestic violent crimes. Since 
that time, we have had 11 cases, with 6 convictions, 2 
dismissals, 1 transferred to U.S. Attorney's office and 2 
pending. Domestic violent crimes are subject to the Act's 
enhanced sentencing guidelines.
    Also under the Act, one of our tribal prosecutors is 
designated as a special assistant U.S. Attorney to prosecute 
reservation crimes in Federal court, resulting in improved 
collaboration and communication between our respective 
agencies.
    There is no question that the Tribal Law and Order Act has 
enabled Tulalip to better protect its community. But with 835 
arrests this year alone and 60 percent of those arrests being 
non-Indian, we still need legislation that will allow tribes to 
prosecute non-Indians for crimes committed on the reservation, 
in order to truly make our communities safe.
    But there have been some significant gaps within the Act's 
legislation. For example, Tulalip could not fully participate 
in the National Criminal Justice information sharing via State 
networks, because this was dependent on Washington State 
Patrol's regulations and policies. This left open the 
possibility that an order does not get entered into the State 
system, and this did occur.
    But just recently, Justice has instituted a pilot program 
in an attempt to deal with the issue through the development of 
a tribal access program. This will allow tribes to enter 
protection orders directly into the Criminal National Network. 
Appropriate funding is needed on the tribal side to fully 
utilize this program.
    Unlike States and local governments who use tax revenues to 
fund their judicial system and still receive direct Federal 
funding, tribes are prevented from exercising their taxing 
authority because of the imposition of State and local taxes on 
Indian lands that lead to double taxation. Tribes lack parity 
in accessing Federal funds that are available.
    As an example, in 1977, the BIA funded each tribal court in 
the Northwest Inter-Tribal Court System in the amount of 
approximately $37,000. Today, 30 years later, that funding is 
still at the same level.
    The Bureau of Prison's tribal prisoner program should be 
reinstated under a more expansive and streamlined approach. 
Initially, this was a three and a half year program. However, 
it took a minimum of two years for many tribes to enact TLOA.
    Also, this project limited tribal use to sentencing greater 
than two years and one day. And it was limited to violent 
crimes. Moving forward, the BOP program needs to be expanded so 
that tribes can utilize these jail facilities for sentencing of 
over one year and one day, as available for other criminal 
justice agencies. This program also needs to be expanded to 
include domestic violence and protection order violation 
convictions.
    We have submitted detailed written comments. I would like 
to thank you for taking the time to listen to our comments, 
concerns and recommendations.
    [The prepared statement of Mr. Gobin follows:]

Prepared Statement of Hon. Glen Gobin, Vice Chairman, Tulalip Tribes of 
                               Washington
    Good afternoon Chairman Barrasso, Vice-Chairman Tester, and 
Committee Members, my name is Glen Gobin, Vice-Chairman of the Tulalip 
Tribes. I would like to thank you for the opportunity to testify on the 
Tribal Law and Order Act and its effect on criminal justice systems in 
Indian Country.
Introduction
    The Tulalip Tribes are the successors in interest to the Snohomish, 
Snoqualmie, Skykomish, and a number of allied bands, who have occupied 
the Puget Sound region in Washington State since time immemorial, and 
were signatory to the 1855 Treaty of Point Elliot. Under the terms of 
the treaty, these tribes moved to the Tulalip Indian Reservation and in 
1934 under the Indian Reorganization Act, chose to use the name the 
``Tulalip Tribes'' which is named for a bay on the Reservation.
    We thank the Committee for supporting the Tribal Law and Order Act 
of 2010 in an effort to better address crime in Indian County. The 
purpose of the Tribal Law and Order Act (TLOA) is to make US Attorney 
and federal agencies more accountable for serving Native communities, 
to provide greater authority and autonomy to Tribal Nations to operate 
their own justice systems and protect their communities, and to enhance 
cooperation between federal and state officials in law enforcement 
training and access to criminal justice information. Although Tribal 
justice systems still face significant jurisdictional and funding 
obstacles, the TLOA is a positive, initial step forward in providing 
tribal justice systems with increased authority and tools needed to 
keep tribal communities safe.
    Tulalip initially expanded its justice system in 2001 when it 
retroceded criminal jurisdiction from the State of Washington. In the 
last decade, the Tulalip justice system has made great strides, 
developing a full service police department and court system as well a 
strong support system of prosecutors, probation officers and public 
defenders. During the same period, Tulalip incorporated Quil Ceda 
Village (Village) to promote Reservation based business development. 
The success of this economic development has created thousands of new 
jobs and brought in millions of new visitors to the Reservation. 
However, our government is still unable to collect the necessary taxes 
to support critical governmental functions that other state, federal 
and local governments enjoy. The imposition, assessment, and collection 
of taxes by the state and county undermine and prevent Tulalip and the 
Village from exercising its own sovereign taxing authority. As a direct 
result, the tribes must subsidize and finance, with millions of tribal 
hard dollars each year, the necessary governmental infrastructure and 
services to the Village businesses. The end result, is that the Tribes 
cannot devote those revenues to the needs of the tribal community, 
including its criminal justice system. Although it has been difficult 
to expand the justice system to cover these increased responsibilities 
with finite tribal resources, a strong public safety system is vital 
for the continued growth of the Tulalip community. Much of the recent 
success Tulalip has had would not have been possible without an 
effective tribal justice system that community members, visitors and 
businesses can rely on.
    After the passage of the TLOA, Tulalip amended its criminal codes 
to increase sentencing authority for major felony crimes. As other 
tribes experienced, these amendments took time to expand the 
corresponding infrastructure needs. In 2014, Tulalip requested to 
participate and was chosen for the VAWA Special Domestic Violence Court 
Jurisdiction Pilot Project, and today we continue to prosecute non-
natives for domestic violence crimes. Since that time we have had 11 
cases, with 6 convictions, 2 dismissals, 1 transferred to the US 
Attorney's office and 2 pending. Under the VAWA tribal provisions, 
domestic violence crimes can be designated as crimes subject to TLOA 
enhanced sentencing guidelines. Furthermore, pursuant to the TLOA, with 
the support of the Executive U.S. Attorney's office and after many 
discussions with the Western District U.S. Attorney, one of our Tulalip 
tribal prosecutors is designated as a Special Assistant U.S. Attorney 
(SAUSA) to prosecute reservation crimes in federal court. This SAUSA 
appointment has improved collaboration and communication between our 
respective agencies, resulting in increased prosecutions of sexual 
predators.
    Since Tulalip received retrocession and years prior to implementing 
greater criminal justice authority under the TLOA, it has been 
committed to protecting the rights of the accused. All of the Tulalip 
judges, prosecutors and criminal defense lawyers are highly qualified 
attorneys. Tulalip provides all indigent defendants with legal counsel 
without charge. All basic rights of defendants are recognized and 
codified into the Tulalip criminal justice codes. All defendants have 
the right to appeal to the Tulalip Court of Appeals. Just as important, 
the Tulalip court is best suited to address crime and impose sentences 
in a culturally appropriate way, which includes exploring alternatives 
that help offenders, victims and the community heal. As a result of 
this robust justice system and increased jurisdictional authority, we 
have seen an increase in victims coming forward to report crimes as 
they are seeing that their perpetrators will be held accountable.
    There is no question that the Tribal Law and Order Act has enabled 
Tulalip to better protect its community. Although the TLOA still leaves 
the tribes reliant on federal prosecution for most serious crimes, even 
with the addition of another tribal liaison as TLOA authorized, the 
U.S. Attorney will still decline to prosecute some major offenses for a 
variety of reasons. In these situations, it is vital for the Tribal 
court to have the authority and capacity to appropriately sentence 
violent offenders. Under the TLOA enhanced sentencing guidelines, 
Tulalip has filed approximately 33 charges carrying a sentence of more 
than one year. Federal and state prosecutors are often unwilling to 
pursue domestic violence and sexual assault cases on the Reservation 
because they are time consuming and inherently difficult to prosecute. 
The TLOA enhanced sentencing guidelines have proven especially useful 
as a tool for addressing these crimes on the Tulalip Reservation. We 
have one person convicted of rape of a child and is serving three years 
(the max available) in federal prison, through the Bureau of Prisons 
Pilot Project.
    The Tulalip Tribes values its relationship with the U.S. Attorney's 
Office, which has been an important partner in fighting crime on the 
Reservation. The provisions of the TLOA providing for better reporting 
and communication between the U.S. Attorney's Office and Indian tribes 
have proved helpful in improving this relationship. Since the passage 
of the TLOA, Tulalip prosecutors have developed a better working 
relationship with the Assistant U.S. Attorneys in the Seattle Office, 
and the Tulalip Police Department has forged a better relationship with 
federal law enforcement.
    While in the Tribal Law and Order Act of 2010 Congress required the 
Attorney General to ensure that tribal agencies that met applicable 
requirements be permitted access to national crime information 
databases, the ability of tribes to fully participate in national 
criminal justice information sharing via state networks has been 
dependent upon various regulations, statutes and policies of the states 
in which a tribe's land is located. The Washington State Patrol is the 
CSA for the state, and it is also the administrator for the state 
database. Under Washington law, the Tulalip Tribes access to the 
national crime information databases has been limited that at times 
endangers officer safety and our community at large. For example our 
tribal court domestic violence protection orders were not directly 
entered into the database. Instead we had to through a state 
intermediary, which introduced extra layers of bureaucracy that 
introduced delays, errors, and sometimes prevented orders from being 
entered into NCIC-POF. Earlier this year, we began participation in the 
JUST pilot project and last month we were notified that we will be 
included in the User face of the Tribal Access Program (TAP).
    Despite the recent progress, Indian Country continues to face a 
crisis of violent crime. A Bureau of Justice Statistics Report covering 
the period 1992-2002 found that American Indians are victims of violent 
crime a rate more than twice that of the national population. 
``American Indians and Crime.'' (U.S. DOJ Publication No. NCJ 
203097).Washington, DC: U.S. Department of Justice (2004). According to 
the DOJ-BJS report, American Indians experienced an estimated 1 violent 
crime for every 10 residents over age 12. The figures are even worse 
for Native American women, who are the victims of rape or sexual 
assault at a rate more than 2.5 times that of American women in 
general. The DOJ-BJS study concluded that 34.1 percent of American 
Indian and Alaska Native women--more than one in three--will be raped 
in their lifetime. The enactment of the Tribal Law and Order Act was an 
important step toward dealing with crime in Indian country, but much 
still needs to be done. Checkerboard jurisdiction and lack of tribal 
criminal justice authority over most non-Indian offenders create 
unnecessary obstacles to addressing Reservation crime. The need to 
build upon TLOA and the VAWA tribal provisions is critical as we move 
forward. For example, in 6 of our 11 SDVCJ cases, children were present 
and victims of crime. Other Pilot Project tribes experienced the same 
phenomena; even where the law has been implemented, tribal prosecutors 
are limited in their authority and cannot charge an offender who 
simultaneously abuses or endangers his children, commits a drug or 
alcohol offense or property crime, interferes with the reporting of the 
domestic violence, or who physically or sexually assaults someone other 
than an intimate partner. Of our six child victims only one will have 
its crime redressed because the case is in the federal system.
    Criminal cases are best handled by local law enforcement, which is 
tribal law enforcement on the Indian reservation. Tulalip police 
officers all possess both tribal and Washington State general peace 
officer commissions with authority to arrest under tribal and state 
laws. At Tulalip, the Tribal police department responds to all police 
calls on the Reservation, from both the Indian and non-Indian 
community. Incidents range from simple misdemeanors to major crimes 
such as murder and rape. In 2015, Tribal law enforcement has made a 
total of 835 arrests. Roughly 60 percent of the arrestees were non-
Indian. Tribal criminal justice systems need full jurisdiction, with 
federal assistance, to prosecute persons arrested by local law 
enforcement in order to truly keep their communities safe.
    The Tulalip Tribes remain committed to operating an excellent and 
effective justice system. The same principles of accountability and 
fairness recognized in the United States justice system are equally 
important in the Tribal justice systems. However, criminal justice 
requires substantial and reliable sources of revenues to operate 
effectively.
    The increased responsibility Tulalip has taken on in addressing 
crime has strained tribal budgets. Police, courts, indigent defense and 
probation all require significant levels of funding. The expense of 
incarceration is one of the highest hurdles for Tribes to implement the 
enhanced sentencing authority under the TLOA. Furthermore, prosecuting 
cases in which a defendant may face up to three years in custody 
carries higher costs, as there will be greater prosecution and defense 
expenses, as well as longer trials. In addition, these defendants have 
a higher need for appropriate re-entry programs as these crimes are 
more severe and the perpetrator needs more reeducation and treatment to 
return to the tribal community. Tribal governments must balance these 
needs with other important unmet needs such as housing, education and 
health care for the Indian community.
    Providing tribal courts with greater authority will not be 
effective unless the Federal Government steps up and supports Indian 
tribes with equal funding and removes limitations to our authority to 
generate new revenues. States and other local governments have greater 
direct access to federal funding resources that tribes either cannot 
access, or the barriers are so great to access, that attempt to obtain 
the funding is pointless because of barriers or conditions that a state 
places on tribes. A prime example of unequal funding is the recent 
increase that states are receiving from the Victims of Crime Act, in 
which the state of Washington funding is increased from around 3 
million to over 35 million for this year. There is no mandated tribal 
set aside or formal system for meaningful consultation for tribes to 
benefit from this funding. VOCA provides no meaningful tribal set 
aside. We have been encouraged by the introduction of the SURVIVE Act, 
but passage is still uncertain. Increased federal funding is necessary 
for Tribes to build capacity and operate justice systems effectively. 
We call upon the federal government to actively support Tribal 
governments in their efforts to gain greater authority to raise 
revenues through tribal taxation in order to meet criminal justice and 
other important tribal government responsibilities. We also call for 
equality in access to all justice system funding programs with a 
mandated tribal set-aside that goes directly through to the tribes.
Specific Amendments Needed to TLOA
  <bullet> The Bureau of Prison program. The Bureau of Prisons Tribal 
        Prisoner Program should be expanded, streamlined, and made 
        permanent to include other non-violent TLOA and VAWA crimes 
        that qualify for enhanced sentencing. The Bureau of Prison 
        project was a 3.5 year program; however, it took a minimum of 2 
        years for many tribes to enact TLOA. Furthermore, use of the 
        BOP project was limited to sentencing of 2 years and 1 day, and 
        limited to violent crimes. Thus, few tribes were able to 
        utilize the BOP project and it soon went away. The BOP program 
        needs to be expanded so that tribes can utilize these jail 
        facilities for sentencing of over 1 year and 1 day similar to 
        other criminal justice agencies. In addition, Defendants 
        convicted on Special Domestic Violence Court Jurisdiction 
        (SDVCJ) should be included as eligible defendants as well as 
        repeat violators of DV protection orders and stalking crimes. 
        As the process currently exists, violations of protection 
        orders and stalking crimes are not characterized as violent 
        crimes for purposes of BOP Pilot Project participation 
        criteria. Such a narrow view does not recognize that these 
        types of crimes can be just as lethal or impactful as 
        ``violent'' crimes. The process could be streamlined and less 
        burdensome than the past application process.

         The value of this program goes beyond the obvious one of not 
        having the tribe bear the expense of longer-term incarceration. 
        In addition, use of this program can be used as a prosecutor 
        tool. There are times when we have a case that could possibly 
        be filed by the USAO, but that we feel is more appropriately 
        addressed in Tribal Court. One circumstance is when we feel 
        it's important to the community, for a variety of reasons, to 
        have justice done here at Tulalip. Sometimes the conduct is 
        egregious enough that two, three, or more years seems called 
        for, but if filed in federal court could result in 30 years--
        essentially life in prison in some cases. In addition, we might 
        have a case that really should be prosecuted by the USAO, but 
        for some reason they are not willing to take the case. In those 
        instances we can offer a significant sentence, but the 
        financial burden on the Tribes would be extreme. Perhaps the 
        most important benefit to the Tribes is that a sentence served 
        in federal prison removes the defendant from the community. 
        Inmates have much less influence on community members and vice-
        versa. You can see how a person operating a criminal enterprise 
        of some kind could continue to do so if s/he had regular 
        contact with people on the outside. Similarly, DV victims would 
        be more easily intimidated and manipulated if visitation were 
        possible. Furthermore, a county jail such as the one utilized 
        by our Tribe is really intended for much shorter-term 
        incarceration, and offers much less in the way of 
        rehabilitative services to inmates that might affect future 
        behavior and reduce recidivism. Our Tribe only became TLOA-
        qualified and VAWA-qualified in the last two years. It is 
        anticipated that as this enhanced jurisdiction is asserted more 
        and more over time, the option of sending our prisoners to 
        federal prison could be utilized more and more.

  <bullet> NCIC/criminal databases and Tribal Access. The Tulalip 
        Tribes urges the appropriation of financial resources towards 
        fully implementing the Tribal Access Program (TAP) to Federal 
        Databases. The TAP program will need to be fully funded as a 
        permanent program in partnership with Indian Tribes to enhance 
        delivery to tribal governments and provide ongoing improvements 
        while keeping all interested tribes informed of the delivery of 
        this program. The Tulalip Tribes is honored to be selected as a 
        Pilot project tribe for TAP, but it is potentially already 
        encountering unnecessary limitations because there is 
        insufficient funding for our defined need to fully utilize the 
        program thus databases, as other non-tribal governments are 
        able to do.
Conclusion
    Thank you for taking the time to listen to our concerns, the voices 
and needs of our tribe, and for considering our recommendations. We 
believe in the continuation of building alliances to enhance and 
promote the needs of tribal justice agencies. By working together we 
stand stronger in our advocacy efforts for equal access to justice, 
local based solutions to local problems, and access to services and 
advocacy designed by and for Native communities.

    The Chairman. Thank you so much for your testimony. I 
appreciate all the witnesses being here for your testimony.
    I would like to turn to questions from the Committee. We 
will start with Senator Hoeven.

                STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Hoeven. Thank you, Mr. Chairman. I would like to 
thank all the witnesses for being here today.
    I will start with Secretary Roberts. The Tribal Law and 
Order Act has now been in effect for five years. Let's start 
with, what are the biggest challenges that you have in terms of 
reducing crime on the reservation?
    Mr. Roberts. I think we have made a lot of progress on 
collaboration with State and local governments. But I think we 
could do more. So I think one area where it is working, what 
staff tells us is where it is working really well is in 
Oklahoma, where Oklahoma has passed State laws recognizing 
tribal and Federal law enforcement officers as peace officers. 
So I think if there is anything we have learned since TLOA was 
passed and as we are implementing it, it is that TLOA was a 
great step forward in collaboration, really opened up lines of 
communication both among the Federal family and among tribes 
and local governments. But I think we can do more there in that 
respect.
    Senator Hoeven. Is there a special initiative in Oklahoma 
that led to that legislation? Is there something you can 
recommend to other States?
    Mr. Roberts. My understanding from talking with staff is 
that that is an Oklahoma State law. I don't know the history as 
to why the State of Oklahoma passed that legislation. But we 
can certainly ask our staff to provide some more information to 
your staff, to provide background on that.
    Senator Hoeven. I would appreciate that. Thank you.
    Ms. Beadle, what are the top three things we can do to 
reduce substance abuse on the reservations?
    Ms. Beadle. I think there are a number of challenges that 
we need to address. First, I would say specifically with regard 
to Indian alcohol and substance abuse, tribes have said to us 
that they need some local planning. One of the things that TLOA 
does do is it provides the ability for tribes to develop these 
local tribal action plans.
    One of the challenges in doing that is the funding the 
tribes don't have to do this. They have told us that it takes 
funding to be able to create these plans, it takes funding to 
be able to implement these plans. And there isn't constant 
funding to be able to do that. So I think that is one of the 
things that would be helpful to help support tribes' ability to 
develop these tribal action plans.
    I think a second area is focus on prevention among Native 
youth. We hear all the time, in fact, we had the Secretary's 
Tribal Advisor Committee meeting this morning where we had 
tribal leaders come in. We had a very robust conversation about 
alcohol and substance abuse. The challenges are around 
supporting programs after school. These young people don't have 
places to go. How do we support those programs if those 
programs are not in place? We do need to figure out how to do 
more of that.
    I would say a third piece is around the youth themselves 
and helping these youth get a better understanding of the 
issues that are happening in their communities. Last year, 
SAMHSA had a native youth conference where we had over 125 
youth. What they told us is they can actually fix some of the 
problems themselves. They recognize that these problems don't 
have to exist. They just don't have the information. They want 
to be able to be more informed and more active, so SAMHSA is 
trying to help them become more engaged through some national 
leadership activities.
    So funding, after school program activities and getting 
youth more engaged in the solution.
    Senator Hoeven. Thank you.
    Mr. Toulou, from an enforcement standpoint, what are the 
top three things we can do to reduce crime on reservations?
    Mr. Toulou. I think one of the first things we can do is, 
which is something we are doing as a result of the Tribal Law 
and Order Act, is to work better with all of our partners. That 
is one of the things we have been able to do better.
    Senator Hoeven. That kind of goes back to what Secretary 
Roberts was talking about.
    Mr. Toulou. Right, exactly. And that is State and local as 
well as Federal. It is, as I think one of you mentioned, a 
complex jurisdictional scheme in Indian Country, particularly 
in your State, with some of the oil development that is going 
on there. There is a lot going on, and we have to work together 
better. And we are at this point in time. That is a challenge 
and that is something we will continue to pursue.
    Apart from that, I think one of the other things we need to 
do and are doing and has been again facilitated by the Act is 
to assist tribal law enforcement and tribal judicial systems to 
be able to better handle the issues that occur on the 
reservations. That is something we have done with the data base 
access, we provide grants to tribal courts to better build what 
they are doing.
    The Violence Against Women Act, which really helped tribal 
courts enhance their entire system, has been incredibly 
successful. I want to just for a second talk about one of the 
things that has happened as a result of the Violence Against 
Women Act. It has been a very nice development that we didn't 
foresee. Initially in introducing the act and getting it up and 
running on the initial five reservations, we put together a 
group that is called the Inter-Tribal Technical Assistance 
Working Group. That is 40 different tribes that have come 
together. We convened the group, but the group is the 40 tribal 
leaders and representatives. They share information with each 
other. Tulalip has been a leader in that group. They work 
through the problems they see in the reservation in a tribally-
specific way. So we think that kind of enhanced communication 
and sharing is crucial and ongoing.
    Senator Hoeven. Thank you.
    The Chairman. Thank you, Senator Hoeven. Senator Cantwell?
    Senator Cantwell. Thank you, Mr. Chairman.
    Mr. Toulou, I would like to follow up on that. Obviously we 
want to see continued progress made and coordination and 
working together. Mr. Gobin brought up a very painful example, 
not in detail, but I am assuming you are referring to what 
happened in a case of someone having a domestic violence order 
filed against them and yet still getting access to a firearm.
    So this issue of coordination is very important. Part of 
the issue is that under the coordination grants, the Tulalip 
has been a recipient of that in the past. But this year, I 
think they have gotten nothing. I'm trying to understand how 
you think this coordination works. I would say, I had a chance 
to travel with Senator Murkowski to Alaska and look at some 
examples of tribal justice in her neck of the woods. I would 
say the Tulalips are way ahead, just by the nature of being in 
a very large urban area. The numbers Mr. Gobin responded with 
proves how much he has issues to deal with.
    So my question is, I would assume that you would want some 
continuity in the development of this system working with 
tribes as opposed to having a grant one year and the next year 
being gone. I am trying to understand how we build on some of 
the best examples right now of tribal justice. There is a lot 
to learn here in the coordination, a lot to get through, I 
should say.
    Mr. Toulou. We recognize the funding issues. Particularly 
with the tribes who were the initial leaders in the Tribal Law 
and Order Act, they put a lot of their own resources into those 
programs. Grants aren't always the best way to fund ongoing, in 
fact, they are not the best way to fund ongoing needs to 
tribes. But they are the means we have. We have done our best 
to spread them around.
    One of the things we have been talking to tribes about 
generally as we plan our grant-making programs, and we talk to 
tribes as we set up our grants, was the issue of direct funding 
for the tribes who were implementing the Violence Against Women 
Act. Unfortunately, we don't have a consensus with tribes right 
now, how they would like to see that happen. We will continue 
to explore opportunities with Tulalip and Pascua Yaqui, 
Umatilla, Fort Peck and Sisseton-Wahpeton, to figure out better 
ways of providing them funds. We go forward with the limited 
grant funds we do have.
    Senator Cantwell. Mr. Gobin, did you want to comment on 
that? And did you say there was something, some State 
regulation that prohibited you from sharing that data?
    Mr. Gobin. It is not a State regulation, it is an economic 
fact that double taxation in any economic region means you are 
going to have no development. If the State will not forgo 
taxing on tribal lands, then the tribe cannot economically 
impose its taxes. So the State collects it, yet no services 
come back onto the reservation.
    Senator Cantwell. So how do you build the continuity in the 
system? Is there some point you wanted to make about that? You 
were able to use some of the grants so far to improve the 
system? But now there will be a gap?
    Mr. Gobin. It is inconsistent funding. We have applied for 
grants. Sometimes we have received grants. Sometimes not. 
Sometimes the grants are diminishing three-year grants that 
start out at a certain level and expire after three years. Then 
the tribe is supposed to pick up and carry on with that 
program.
    We had some of those early on, I think it was a juvenile 
justice grant. It helped grow our police department. But after 
three years, the tribe incurred the expense to carry that on. 
Without the collection of taxes to fund that governmental 
service, they come directly out of our economic development 
dollars that come in.
    Senator Cantwell. Mr. Roberts, what is the vision of the 
agency about how we move forward here?
    Mr. Roberts. Moving forward with implementation of TLOA?
    Senator Cantwell. Yes. Well, let me just say, I feel like 
we are a vast representation on the membership that is here 
right now on what the needs are for Indian Country and 
coordination. I think we represent all sorts of different 
areas. I would assume that what we would want to do is get best 
practices established and then try to continue to push them out 
as far as we can push them out.
    So what I am saying is, put a little money on the table. I 
am not even sure what lessons we have learned correctly and how 
much more we need to build capacity and scale. But every one of 
us can tell you of a tragic story that has happened in Indian 
Country, in our State that basically has broken our hearts and 
devastated us. We want to make sure we are taking steps forward 
for best practices and then scaling it and having an 
understanding of what it is going to take to scale it. That is 
what we want to know.
    Mr. Roberts. A couple of things that the Department has 
done along those lines is, we had a pilot project that we 
implemented on I believe it was four reservations addressing 
violent crime in Indian Country. One of the was Chairman 
Barrasso's home State tribes at the Wind River Reservation. We 
implemented that pilot program in a number of other locations 
as well. What we have seen is, as part of that program, where 
we provide resources and assistance to a tribe to combat 
violent crime that they are very successful in lowering those 
crime rates.
    There was a period I believe of over three to four years of 
this pilot program. What we saw in the initial years was that 
crime rates went up. The reason crime rates went up is because 
people had more confidence that action was going to be taken. 
So before the pilot program, folks may not have gone to law 
enforcement because they didn't see results. In these pilot 
programs, when they were being implemented, they saw results 
that were happening. Crime rates went up, but then they went 
significantly down because of the increased presence.
    The other thing we are doing is implementing the recidivism 
project that I talked about in my opening statement. That is at 
three reservations. We are trying to build data there to see, 
okay, if we focus on recidivism and we know from talking with 
law enforcement that the majority of offenders in Indian 
Country, they are not violent criminals. They are committing 
crimes because they have a drug abuse or alcohol related issue. 
So we focus on recidivism and a pilot project to build data 
that the Committee can use to see how we scale that out, how we 
develop best practices.
    We have been at that for a couple of years. The results 
over a couple of years, I think folks will tell you, a couple 
of years isn't long enough to track recidivism right now, but 
over the couple of years, we have seen a decrease in the double 
digits, over 40 percent, in recidivism. So at the Red Lake 
Reservation, and the chairman of Red Lake, hopefully he can 
help educate the Committee, but at Red Lake, for example, they 
had 31 juveniles in that pilot project for recidivism. They 
have since aged out, but not a one of them has gotten back into 
the system under that pilot project.
    So I think there are some real successes, and that is sort 
of what we are trying to build on.
    Senator Cantwell. My time is expired, Mr. Chairman, thank 
you.
    The Chairman. Thank you. Senator Murkowski?
    Senator Murkowski. Thank you, Mr. Chairman.
    Mr. Roberts, thank you for your testimony. I thank all of 
you.
    This week, Secretary Washburn is in the State. He is at the 
BIA providers conference up there. He has indicated that DOI is 
prepared to consider land-into-trust applications from the 
State as soon as this litigation that I mentioned earlier is 
resolved. The Department has represented to us that there will 
be public safety advantages to our villages if we see land 
taken into trust.
    We have jurisdictional issues to resolve out there, but 
what I am curious to know more about is the resources that 
might follow. Our villages rely 100 percent on the Federal 
Government to fund their governments.
    So are you prepared to fund, is the Department prepared to 
fund public safety improvements in Alaska if we were to see an 
increase in our trust lands?
    Mr. Roberts. Senator, thank you for the question. One of 
the things that we do look at when we are considering fee-to-
trust application is our ability to deliver services to that 
land. That fits into the nexus.
    Senator Murkowski. Right.
    Mr. Roberts. So if we take land into trust, then we would 
obviously be prepared to take on that responsibility. I think 
what Secretary Washburn has mentioned though, and I think it is 
an important point for everyone to bear in mind is that if we 
take land into trust in Alaska, the State will still have 
jurisdiction, but it brings another partner to the table for 
those crimes that would happen on that trust land. Right now, 
tribes are limited in their ability.
    But if the land is in trust, then it would be like other 
trust land and Public Law 280 States, where tribes would have 
authority to prosecute members as well as the State.
    Senator Murkowski. Let me ask specifically then because we 
have BIA police here behind you this afternoon. Would you 
anticipate that we would see heightened BIA police presence 
within the state if we move to land-into-trust in the State?
    Mr. Roberts. I think we would address it the same as we 
address other Public Law 280 States in that support. So I think 
there would be increased services available. I can provide more 
information on that.
    Senator Murkowski. I think it would be helpful to have more 
information and more understanding. As you may know, I have 
been trying to get funding for P.L. 280 States for our tribal 
courts. So through the appropriations process this year, we 
have for the first time ever a small amount. It gets our foot 
in the door.
    But as a P.L. 280 State, it has been one of those issues 
where we are looking at it and we are saying, we would like to 
be able to do more, but the funding has not come to us. So if 
there is going to be representation that if you put forth your 
application for land into trust that resources will then 
follow, I think you are going to see perhaps more interest. But 
it is not going to be real if there isn't something concrete 
behind that. I think we need to know that going into it.
    And again, these discussions are very much underway in 
Alaska right now.
    Mr. Roberts. And like I said, it would be commensurate with 
how we deal with law enforcement in other P.L. 280 States. For 
example, California is a P.L. 280 State. I mentioned in my 
testimony about BIA working with Cabazon to get better access 
to that California data base, to work more collaboratively.
    Will there be officers on the ground? I don't know off the 
top of my head, but that is something that we can certainly 
follow up with your office, Senator. The other thing I wanted 
to quickly mention is that Tricia Tingle from Director Cruzan's 
office is in Alaska this week providing tribal court training 
in Alaska. I know there are a number of assessments there. So 
thank you for your support on that work.
    Senator Murkowski. We will keep pushing on that.
    Let me ask you, Mr. Toulou, from DOJ's perspective what 
resources could be brought to bear if Alaska were to move, if 
some of our tribes were to move toward land-into-trust?
    Mr. Toulou. I think it's some of the existing resources 
that tribes are accessing now. It would be a better 
justification for them when they are putting their grants in. 
That would be the COPS program, we currently provide COPS 
funding which provides for officers. We also provide funding 
regarding detention facilities and their construction in 
Alaska. We provide money for tribal courts, for re-entry. So 
all those programs, Office of Victims of Crime has victim 
services money that would be available, we have police officers 
working in the villages. That would certainly be something we 
would want to factor in. And the Office of Violence Against 
Women has resources.
    So all those resources would be available. But I think it 
becomes a more urgent need if you have the jurisdiction of the 
land that you have the officers in.
    Senator Murkowski. I would be remiss if I did not take the 
opportunity to remind you that the Attorney General has been 
invited on numerous occasions to come visit the State of 
Alaska. I don't know whether she has publicly made promises, 
but I know there are great hopes that she would have an 
opportunity to visit some of our Alaska Native villages some 
time in this next year. So if you could convey that outstanding 
invitation to her, it would be appreciated.
    Mr. Toulou. I will do so. I had the opportunity to visit 
Alaska last year and I will convey that. It is a great place.
    Senator Murkowski. Thank you. I appreciate that. Thank you, 
Mr. Chairman.
    The Chairman. Senator Murkowski, thank you very much. 
Senator Heitkamp?
    Senator Heitkamp. Thank you, Mr. Chairman.
    I want to focus most of my comments on substance abuse and 
the work that SAMHSA is doing, which I think is great, a little 
late, but we are glad you have been included on this panel.
    Mr. Toulou, how many law enforcement officers should we 
have on Mandan, Hidatsa and Arikara Nation?
    Mr. Toulou. Ma'am, I could not tell you a number, but I can 
certainly look into it.
    Senator Heitkamp. I don't think anyone has those numbers. 
So you can look into it, but you aren't going to find those 
numbers. I think you know my point. My point is that we have 
large land tribes. We have isolated rural tribes. And we have 
no law enforcement presence. We have no cop on the beat. And 
when you have no cop on the beat, and you have heard Mr. 
Roberts talk about increased presence and what that does, 
increased attention to recidivism and re-entry from Federal 
prisons, which I know you guys are working on and I applaud 
that.
    But we don't know how many cops we need in Indian Country 
and where we are going to get them. And when you say, let's do 
memoranda of understanding in this collaboration, I am pretty 
sure I am the only person in this room, at least this half of 
the room, who has ever tried to negotiate an MOU. I spent six 
years and got nothing done. And I am not used to spending that 
amount of time and getting nothing done.
    But it was a pilot project, and it relies on trust, which 
we don't have between State and local authorities and Federal 
authorities. We have Federal authorities who have jurisdiction 
but don't have a presence. So we don't have a cop on the beat. 
This is an issue I raised with the FBI director, invited the 
FBI director to come out. I think we cannot begin to solve all 
these other problems until we get a true law enforcement 
presence. This is an age-old problem.
    I want to focus on substance abuse because as Mr. Roberts 
has said, and I think anyone who does this work, we know that 
we have a crisis in this country of substance abuse. But it is 
amplified in Indian Country. I want to tell you, I am very much 
looking forward to your 2016 report. I think that will be very 
enlightening.
    But during your testimony, you said there are 70 programs, 
and you are going to educate on where those 70 programs are. 
Did you ever think, boy, that is a lot of programs and maybe we 
ought to streamline this and adopt the kinds of programs that 
are best practices that we actually have seen things work?
    Ms. Beadle. Those programs include a whole range of things. 
Some of those are Federal programs. Others are programs that 
are exemplary, that are important for tribal communities. These 
are not all funded programs from the Federal Government. We 
were asked through TLOA to identify the various resources that 
would be helpful to tribes.
    So these educational programs include substance abuse.
    Senator Heitkamp. But just exercising your personal 
judgment, do you think giving somebody a list of 70 programs, 
and some are this and some are that, that that is really----
    Ms. Beadle. It doesn't end there. I appreciate and respect 
your question. What we do a lot is, in addition to letting 
tribes know what is out there, we do a significant amount of 
technical assistance. We literally can do onsite technical 
assistance with tribes to help them understand how to bring 
those programs together that might be useful to their 
communities.
    Senator Heitkamp. I have a little experience in tobacco 
control from my time as attorney general. I would tell you, CDC 
put together best practices on tobacco control. Didn't mean one 
size fit all. But it was a foundation and a framework piece. 
Then if you look at almost any good public health program, 
domestic violence programs started with the Duluth Initiative 
and we were able to build on that and actually come up with a 
plan that really led to better outcomes.
    But with my small time remaining, I want to talk about 
trauma-informed and trauma-based therapies. The things we have 
been doing in the past to deal with addiction and to deal with 
some of the issues, I think the more we are learning about the 
effects of trauma, adverse childhood experiences on children, 
the more we know that we could approach this differently. What 
is SAMHSA doing to bring trauma-informed and trauma-based 
initiatives to the discussion?
    Ms. Beadle. One of SAMHSA's primary strategic initiatives 
is actually trauma. We have done a significant amount of work 
across the Country, including the tribal communities. We have 
issued guidance on trauma-informed care, established trauma-
informed care. We have also worked with multiple sectors on 
implementing these guidelines. We specifically now are looking 
at trauma from a community perspective, from an historical 
trauma perspective and supporting a number of tribal programs 
that include those types of efforts to support historical 
trauma within Indian communities.
    Just about every single SAMHSA program that is in a tribal 
community includes those trauma concepts.
    Senator Heitkamp. And I applaud the Office of Juvenile 
Justice that has been a leader in this area as well, and 
something this Committee has tried to educate ourselves on. We 
had a trauma panel about a year and a half ago. This could be a 
path forward for a different program that could lead to better 
and best practices. So I just want to raise that issue.
    Ms. Beadle. Thank you.
    The Chairman. Thank you. Senator Murkowski, any additional 
questions?
    Senator Murkowski. Just very briefly on the issue of 
substance abuse. I don't think Alaska is unique in that we are 
seeing unprecedented amounts of heroin coming into our State, 
getting out to our small villages. We are also seeing levels of 
spice, particularly in our urban areas, in Anchorage. It is 
having a horrible impact on not only our homeless population 
there, but many of our Native residents as well.
    What specific initiatives are focusing on what we are 
seeing with this heroin epidemic in Indian Country, up in 
Alaska? I know that we had, not too many years ago, it was all 
eyes were on meth. And by gosh, we had an effort to get on the 
reservations and wipe it out. In fact, just within the past 
couple of months we saw a grant program, a grant being awarded 
to Alaska on the issue of meth. I am like, wait a minute, that 
was last year's drug that has hit us.
    What are we doing? Heroin, spice, and meth really hasn't 
gone away either.
    Ms. Beadle. I am going to quote the Indian Health Service 
Deputy Director who says, there is always a drug of the month. 
So the issue is not necessarily about do we have one single 
program for meth, one single program for spice. The issue is 
whether we have sufficient programming in Indian Country to 
address any drug or issue.
    So SAMHSA does have a range of programs that support any 
drug that a tribe is having an issue with. We have programs 
that focus on youth and drug use, alcohol use. We have programs 
that focus on court systems and providing treatment for 
individuals who do enter the criminal justice system.
    So there are a range of programs. I think the question is, 
how are we coming together across the various Federal 
departments to address that issue. And in response to the 
concerns in Alaska, we are having a very deliberate Federal 
dialogue around spice, how can we be more proactive around 
that. We are looking at that as we speak.
    Senator Murkowski. From Justice's perspective, one of the 
things we are seeing in Alaska is we can't go out, we can't 
prosecute because the definition of what spice is is just one 
formula off of what we have been able to file charges on. So 
how we stay ahead of that, ahead of the bad guys that are going 
to try to trip us up at every turn, what we are doing within 
the Department of Justice?
    Mr. Toulou. It is a challenge. These drugs change, as you 
pointed out, and there is always a flavor of the month. Prior 
to this hearing, we reached out to the FBI to see what the 
issues were in Alaska. Spice was, not surprisingly, one of the 
issues that they raised. They told us that they are working 
with DEA, State and locals and tribal officials, along with the 
State AG's office and the U.S. Attorney's office to try to come 
up with a mechanism for targeting. They have had law 
enforcement actions against some of the places that are selling 
spice. They will continue to work with their partners to try to 
come up with strategies to hit the new and emerging markets.
    Senator Murkowski. I think we are somewhat unique in that, 
because so many of our communities are isolated, 80 percent of 
the communities in the State are not connected by road. So how 
do these drugs get in? They come in by airplane. And they come 
in through the U.S. Postal Service. They come in through the 
mail. So to me, this ought to be the easy one to address. It is 
not like down in North Dakota where you have a reservation that 
you know the road coming in or the road going out, or you can 
fly in. But it is tougher, it is more porous.
    Here we have one way in. The fact that we have not been 
able to see the reduction in the import of whether it is spice 
or heroin or meth, it continues to confound and disturb me that 
we are not doing better. It does really require a very 
collaborative effort. We don't have the resources on the ground 
that we need. And utilizing everybody is an effort that we 
simply must continue to pursue.
    So not only within the folks at SAMHSA, but those of you 
over at DOJ, this is something that is a huge priority for us.
    Thank you, Mr. Chairman, for the extra time.
    The Chairman. Thank you, Senator Murkowski. Senator 
Heitkamp?
    Senator Heitkamp. I just want to ask the vice chairman, and 
thank him for the work that his tribe has done. I think we are 
looking for models all across the Country that can be adopted 
in Indian Country to better protect Indian people.
    As part of your system, do you have drug courts?
    Mr. Gobin. We absolutely do.
    Senator Heitkamp. Do you have difficulty basically getting 
wraparound services? Because the theory behind drug courts is 
treatment and the opportunity for treatment is critical.
    Mr. Gobin. That is kind of a long answered question. But I 
did want to comment that sitting here is not unlike sitting in 
a tribal council chamber as leadership trying to deal with all 
of these issues. I find it a very similar discussion.
    We contribute millions of dollars toward drug prevention. 
It comes in many ways. It comes through supporting our 
education programs, early childhood development programs, our 
treatment programs, our court programs, alternative sentencing 
programs, trying to find creative ways to deal with the ever-
changing issues around drugs and addiction and what it is doing 
to our society. It is our society as a whole. In Indian 
Country, it seems more magnified. I often think it is because I 
know the victims, we know them. They are family members, they 
are friends. They are people that you grew up with, they could 
be your aunts, your uncles, your brothers, your grandparents. 
And you see this, and you take an active interest in trying to 
deal with it.
    But it all takes money. It takes dollars to do this. 
Fortunately, my tribe is in a position, we have grown 
economically, we are able to contribute those dollars toward 
the membership. But funding that comes through the Federal 
Government needs to have specific set asides that tribes can 
access. Oftentimes it comes down through States and tribes see 
little to none of those dollars. It all depends on the 
relationship that you have with the State.
    You have issues that deal with how you go to deal with 
violators, the VAWA Act. It gives us provisions to deal with 
domestic violence of a non-Indian on a reservation against a 
Native American woman. If that violence also included children, 
the tribes have no ability to charge that person. It would have 
to go to Federal court.
    If that violator also included children, and had drugs 
involved in it, the tribes have no ability to charge that 
person for the drug violation. So unless the Federal prosecutor 
picks that up, they go uncharged and they get away with that.
    So some of those things need to be addressed. Six of our 
cases dealt with minor children. Only one has seen justice 
because of that. Those types of things are what I think need to 
be addressed within the Act. How do we do this? How do we put 
the faith in the tribal court systems that are fully trained 
and in our case, our police department is Washington State 
police officer certification, certified, been through 
academies, been through training. Our chief of police has been 
through the FBI academy, a tribal member.
    So we have built a very strong police force. Yet do not 
have full exercising of our judicial sovereignty that we should 
have within the lands of our reservation.
    Senator Murkowski. Thank you, Mr. Chairman, and thank you, 
Vice Chairman. Continue your good work, and we hope that the 
lessons that you are learning and the loopholes that you are 
exposing here continue to inform our decisions as we move 
forward. Good luck to you and your tribe.
    Mr. Gobin. Thank you.
    The Chairman. Thank you, Senator Heitkamp.
    Mr. Roberts, your written testimony highlights the 
flexibility in training programs, the BIA in providing tribal 
law enforcement officers. Training is intended to lead to a 
larger pool of applicants. I am wanting to get a little follow-
up on that on how the agency determines the effectiveness of 
this training once these officers are now placed in the field.
    Mr. Roberts. Thank you, Chairman, for the question. I do 
know that with regard to that enhanced training that there has 
been a larger pool. I don't know if we have the data in terms 
of how that correlates to on the ground filling of vacancies. 
But I do know, talking with Director Cruzan, that that 
flexibility has been critical.
    The Chairman. The Tribal Law and Order Act required BIA to 
develop and provide dispatch emergency 9-1-1 services in Indian 
communities. I am just wondering, because you talked a little 
bit about it in the written testimony, that you had been able 
to procure equipment and integrate some of the communications 
systems, I think at 17 different agency locations. Can you just 
elaborate a little bit on what capabilities are now available 
in these communities and how things are going?
    Mr. Roberts. I believe, Senator, that the Director is 
saying that at Sycuan, that is one of our primary areas where 
we have implemented those capabilities. I can certainly provide 
additional information for you on that.
    The Chairman. During that field hearing in Wyoming that we 
talked about a little earlier, the lack of law enforcement 
within Indian Country was discussed. I just want to know about 
improvements that the Department has made to ensure that law 
enforcement is fully staffed.
    Mr. Roberts. Full staffing is, I think, unfortunately given 
the difficult budget times, is more of an ideal than a reality 
in Indian Country. I think we all know that.
    But we are trying, and I think that is why I wanted to 
highlight the collaboration between tribal, State and Federal 
law enforcement officers as part of TLOA, because that 
collaboration can help fill some of those gaps, in our 
preparations for this hearing, Mr. Chairman, we talked a lot 
about the SLEC positions. Director Cruzan said, before TLOA, 
that was a huge issue for tribes in getting those memorandums 
of agreement working with the SLEC, with BIA. HE said, because 
of TLOA, we don't hear about that any more. It is working well. 
So that is one of the areas where I think we are trying to do 
more with limited resources, finite resources.
    The Chairman. Ms. Beadle, I want to talk a little bit about 
the fact that the Tribal Law and Order Act provides that 
alcohol and substance abuse issues in Indian communities be 
coordinated under your agency. According to Rick Brennan, my 
friend who I have worked with many, many years as I practiced 
medicine in Wyoming, he is a council member of the Northern 
Arapahoe Tribe in Wyoming, you have been helpful, he says, in 
responding to and implementing the tribe's substance abuse 
action plan. As I am sure you know, alcohol is a significant 
contributor to too many premature deaths on the Wind River 
Reservation in Wyoming where the Northern Arapahoe and Eastern 
Shoshone Tribes both reside.
    What more do you think can be done by your agency, by the 
Department of Health and Human Services, to reverse the trend 
that we are seeing nationally and help specifically the tribes 
on the Wind River Reservation? Do you have sufficient authority 
and resources to fully implement the Tribal Law and Order Act?
    Ms. Beadle. Thank you, Mr. Chairman. When Senator Hoeven 
asked me about the challenges, I was talking about what tribes 
are always saying to us. Those were the tribal communities' 
points.
    This is a point that I think SAMHSA, as the lead agency in 
this country, is concerned about. That is, we haven't talked 
about mental health at all today. The big issue is that most 
people who have substance use problems and have alcohol 
problems, mental health is an issue. We are really working on 
elevating that issue for tribal communities. I can tell you 
that while we have national numbers, alcohol clearly is still a 
problem. Substance abuse is still a problem, but we do know 
that over time, those issues are slightly better.
    It doesn't mean that in particular tribal communities it 
still isn't really, really bad. But overall as a Nation, we are 
actually a little bit better on those two issues.
    Mental health, however, is not happening in the same way in 
tribal communities. So what we have been trying to do is to 
elevate not only the concerns around substance use and alcohol, 
but we have been trying to talk with tribal leaders, tribal 
communities about mental health. I do believe that if there is 
a great focus in tribal communities around mental health, we 
will start seeing differences in terms of what is happening in 
those communities.
    The Chairman. I am always curious on how we measure and 
determine the effectiveness of any of these activities, in 
terms of mental health, in terms of alcohol and substance 
abuse. How do you work in terms of performance measurements, in 
trying to determine the effectiveness of some of these 
programs?
    Ms. Beadle. Thank you for that. In our programs, all of our 
funded tribal grantees do their local evaluation. We also have 
a national evaluation that we have the grantees participate in. 
Those evaluations are showing us very important things. That is 
where we get some of our more qualitative information from.
    The Chairman. Thanks. Mr. Toulou, if I could talk about the 
written testimony of Vice Chairman Gobin, he stated that 
despite the additional of tribal liaison and U.S. Attorney's 
office, we are still seeing people declining to prosecute major 
crimes still occurring. This kind of declining to prosecute, 
which occurs for a variety of reasons, may still leave the 
victim without recourse of justice.
    So the Tribal Law and Order Act authorized several tools to 
improve the potential for prosecutors and prosecutions of 
crimes in Indian communities. Can you explain what else may 
need to be done, that we ought to be looking at to improve the 
chances of prosecuting these crimes in Indian Country?
    Mr. Toulou. I think it is a preliminary matter. Part of the 
reason we see, so you look at these statistics, and they don't 
always tell the whole story, is that many U.S. Attorneys' 
offices are charging more cases than they ever had before. They 
are talking to their tribal partners and they are making 
determinations on where those cases should be. We see in some 
districts those cases are now going to tribal courts. In other 
cases, we are looking at cases we probably wouldn't have looked 
at before, but we want to give them a fair shot. Those cases 
may not be as strong as ones we have had in the past.
    So just because the declination numbers remain high doesn't 
necessarily mean we aren't getting the cases we need to get.
    That said, I think one of the important things that the 
Tribal Law and Order Act has done is improved our communication 
with tribes on the local level. As a former AUSA in Montana, 
there is nothing like being on the ground and talking with the 
people who are experiencing the crime and seeing the crime 
scene to help you understand what is happening. Unfortunately, 
you can't always be out there.
    So working with tribal SAUSAs, special assistant U.S. 
Attorneys are prosecutors, not only allows us to have those 
individuals in to prosecute in tribal court, but it has 
developed this relationship. We have seen many cases, 
particularly in the domestic violence arena, where the Federal 
Government is picking up cases they may not have seen before 
because of that close relationship.
    So I think there are a lot of things that might help. But 
just continuing to build on that communication is critical.
    The Chairman. Thank you.
    Vice Chairman Gobin, your written testimony noted the 
increased funding for crime victim services would help build 
capacity to operate justice systems more effectively. You 
specifically noted that your tribe was encouraged by the 
introduction of the SURVIVE Act in this Committee. Can you 
describe in a little more detail how the SURVIVE Act would help 
your justice system?
    Mr. Gobin. I apologize, I am not fully aware of that. But 
we can send in additional testimony in regard to that question.
    The Chairman. Thank you very much. I do appreciate and t 
hank all of you for being here today. The hearing record will 
be open for two additional weeks. Some other members may want 
to supply you with some written questions. I hope you would get 
the answers back to us quickly, if you could. Thank you all for 
being here today. Thank you for your testimony.
    The hearing is adjourned.
    [Whereupon, at 3:48, the hearing was adjourned.]

                            A P P E N D I X

  Joint Prepared Statement of M. Brent Leonhard, Attorney, Office of 
 Legal Counsel, Confederated Tribes of the Umatilla Indian Reservation 
         and Bill Boyum, Chief Justice, Cherokee Supreme Court
    Thank you for the invitation to provide written testimony to the 
Senate Committee on Indian Affairs. We thank Chairman Barrasso and 
Vice-Chairman Tester for your leadership on Indian country issues and 
desire to improve public safety in Indian country. This brief written 
testimony specifically addresses the Bureau of Prisons (BOP) TLOA Pilot 
Program and the need to make the program permanent based on the 
experiences of both the Confederated Tribes of the Umatilla Indian 
Reservation (CTUIR) and the Eastern Band of Cherokee Indians tribal 
court (EBCI).
    The CTUIR implemented felony sentencing under TLOA in March of 
2011. EB Cherokee implemented in October of 2012. We were likely the 
first tribes in the nation to do so. It has been a real success for 
both.
    Many people at the CTUIR have been charged and convicted of 
felonies since adoption of TLOA. It has proven to be both a vehicle for 
ensuring defendants are held accountable for serious crimes when the 
federal government declines to prosecute cases, as well as an 
appropriate vehicle for holding people accountable by the local 
community when both the tribal nation and the U.S. Attorney's Office 
conclude that a particular case can be best dealt with in tribal court 
rather than federal court.
    A key aspect of TLOA's felony sentencing authority was the 
associated BOP TLOA Pilot Program. Section 234(c) of TLOA required the 
Director of the Bureau of Prisons to establish a four-year pilot 
program to accept certain qualifying tribal convicts free of charge. 
That program was implemented on November 29, 2010 and ended on November 
24, 2014. It was critical for the CTUIR. We house prisoners in the 
local county jail through a contract agreement with Umatilla county. 
Currently, the CTUIR has 5 jail beds available to house criminal 
defendants both pre and post-conviction. Once those are full there is 
no other place to house tribal convicts.
    To qualify for being housed in the BOP Pilot Program a tribal 
convict must have been sentenced to a term of imprisonment of two or 
more years and have two or more years left to serve at the time of 
transfer to the BOP. The underlying offense must also be a violent 
crime substantially similar to a crime listed in the Major Crimes Act. 
The BOP has established a process whereby tribes can submit all of the 
necessary information for the BOP to determine if a convict qualifies, 
and where best to house the convict in the federal system to ensure 
both the convict's safety and the safety of other inmates. Attempts are 
made to house the convict in a facility close to the tribe's community.
    During the duration of the BOP Pilot Program 6 people were placed 
in federal prison: three from the CTUIR, two from the Eastern Band of 
the Cherokee Indians, and one from Tulalip. While the BOP in their 
March 7, 2014 report on the TLOA program indicated they were uncertain 
why so few tribal offenders had been referred under the pilot program, 
it is assuredly because only a handful of tribes have been able to 
implement TLOA felony sentencing authority in that amount of time. 
After all, it wasn't until 4 months after the BOP started the program 
that the first tribe was able to implement felony sentencing. To date 
there are 10 tribes that have implemented felony sentencing authority. 
Unfortunately, the Pilot Program did not last long enough for more 
offenders to be housed in federal prison.
    At the CTUIR the BOP Pilot Program has proved essential to 
exercising felony sentencing authority. The three defendants housed 
under the BOP Pilot Program would have taken up 60 percent of the CTUIR 
detention budget. This amounts to a cost of $85,200 per year under the 
CTUIR current agreement with Umatilla county. That would leave only 2 
beds available for all the other tribal defendants--pre and post-
conviction. In addition, those 3 convicts would not have had the 
various services available under the federal prison system that can be 
critical in reducing recidivism.
    Without the BOP Pilot Program, the CTUIR is left having to focus 
heavily on the impact imprisonment will have on the tribe's overall 
detention resources rather than focusing on what the appropriate 
sentence would be for the underlying conviction. While all systems have 
detention resource concerns to consider, tribal nations like the CTUIR 
have much more serious resource constraints. In absence of additional 
funding from the federal government for detention purposes, the BOP 
Pilot Program was the only viable option available for multiple serious 
felony convicts and had the added bonus of providing important 
programing that could help the defendants deal with underlying issues.
    The first person transferred under the program was sentenced in 
CTUIR court on November 20, 2012 and transferred to the BOP in January 
of 2013. He was convicted of felony assault that resulted in serious 
physical injury as well as felony conspiracy to commit an assault that 
resulted in serious physical injury. In that incident the defendant 
knocked the victim unconscious and fractured the victim's skull. He 
also agreed with another person to cause serious injury to a second 
victim who ended up getting a broken nose. He was sentenced to 1,095 
days in jail with 275 days suspended, and 820 days to serve. The CTUIR 
and U.S. Attorney's Office worked together and determined that the 
tribal court was best suited to handle the matter rather than federal 
court. He was represented in tribal court by his federal defense 
attorney.
    The second convict transferred to the BOP from the CTUIR was 
convicted after trial of one count of felony domestic violence, two 
counts of domestic violence menacing, three counts of domestic violence 
misdemeanor assault, and three counts of endangering the welfare of a 
minor. These offenses arose from the same event. He was also convicted 
of one count of Harassment and one count of Criminal mischief for a 
separate incident. The U.S. Attorney's Office declined to prosecute his 
case and it was left to the CTUIR to ensure he was held accountable for 
his serious criminal conduct. The underlying facts of the felony 
assault conviction involved using a firearm to strike his significant 
other in front of their minor child. He was sentenced to 26 months in 
jail and referred to the BOP Pilot Program.
    In the third case the defendant was convicted of felony assault by 
plea for stabbing his cousin 22 times. The U.S. Attorney's Office 
declined to prosecute the case. He was sentenced to 910 days in jail 
with 788 suspended, or 122 days in jail with credit for time served. 
The defendant later violated his conditions of probation and had 786 
days in jail imposed. At that point he was transferred to the BOP Pilot 
Program in September of 2014. The defendant requested to be transferred 
to the BOP. He did not want to serve the full sentence in county jail.
    Since the BOP Pilot Program has ended the CTUIR has not sentenced a 
defendant to more than one year in jail. This, despite there being 
several sentences with more than 24 months suspended. It is the belief 
of the Prosecutor's Office that this is due in fair part to the 
limitations on available jail space and the absence of the BOP Pilot 
Program.
    The Eastern Band of Cherokee Indians has also found the BOP Pilot 
Program to be essential. At the time of sentencing under the BOP Pilot 
Program, they were housing inmates in a county jail for $40 per inmate 
per night, not including medical care. The county jail did not provide 
work release, drug treatment, educational training or any kind of 
meaningful rehabilitation program. In fact, the second defendant at 
EBCI, like the third at CTUIR, requested that he be allowed to serve 
his time with the BOP to allow him to take advantage of their drug 
treatment program. While EBCI now has a detention facility on their 
reservation, they have not been open long enough to compile sufficient 
statistical data to determine their inmate costs but it is estimated to 
run in the $75 per night range. Their new facility is designed to hold 
inmates through the adjudicative process and to house them for a short 
to medium term of incarceration. It was not designed to house inmates 
for multiple years, although it provides more services and training 
than their local county jail.
    Federal prosecution at EBCI was contemplated for both defendants 
housed in the BOP Program but it was determined by their tribal 
prosecutor/SAUSA that they should both be prosecuted in the EBCI court 
system. The first defendant was sentenced to a 4 year term of 
imprisonment on November 16, 2012 and was subsequently accepted by the 
program. He is currently serving the 4 year term and is scheduled to be 
released sometime in late 2016. He entered a guilty plea in which, 
among other charges, he pleaded guilty to Assault on a Female and 
Failure to Obey a Lawful Court Order. He violated the terms of a 
domestic violence protective order. He assaulted the victim by punching 
her and pulling her hair out which led to the assault charge and 
conviction. He later made direct contact with the protected party at 
the courthouse resulting in a protection order violation. The cost of 
housing this inmate would be approximately $58,400 in county custody or 
more if housed in tribal custody.
    The second defendant at EBCI was sentenced to a 3 year term of 
imprisonment on May 6, 2013 and was subsequently accepted into the BOP 
Program. He has just been released from their custody and is serving 
the remaining period of his active sentence under electronic home 
confinement through the EBCI tribal court probation department. The 
defendant entered a plea in which, among other charges, he pled guilty 
to Assault with a Deadly Weapon and Assault Inflicting Serious Bodily 
Injury. The judgment was consolidated into a 3 year term of 
imprisonment. Defendant stabbed the victim with a knife in the back of 
the head causing 3 wounds. Defendant also cut the victim on the left 
cheek. The blade was broken off at the handle and the victim had to be 
transported to the nearest trauma center in Asheville, North Carolina. 
The total cost of the 3 years of incarceration would have been $43,800 
in a county facility or more if housed in a tribal facility.
    Currently, the EBCI have one additional inmate who would have been 
eligible for the Pilot Program as he received a sentence of more than 2 
years for a domestic violence conviction. He is serving a 3 year active 
sentence. This defendant has requested that he be allowed to serve his 
sentence in a federal facility instead of the tribe's detention 
facility. Additional, they have an inmate servicing a 7 year sentence 
for numerous property crimes.
    In conclusion we want to extend our gratitude and appreciation to 
Chairman Barrasso, Vice Chairman Tester, and all members of the Senate 
Committee on Indian Affairs who are looking at the impact TLOA has had 
over the past 5 years. TLOA has many significant provisions and seeks 
not only increased resources to combat crime in Indian Country, but 
most notably, systemic changes that are necessary to help fix a clearly 
broken system. Unfortunately, one critical piece of TLOA has ended and 
needs to be reinstated and made permanent. The BOP itself has 
recommended in its May 7, 2014 report to make the BOP TLOA Pilot 
Program permanent so that it remains available as a resource for 
tribes. We urge you to pass legislation that will accomplish this 
uncontroversial bi-partisan program. Thank you for your efforts in this 
matter.
                                 ______
                                 
 Prepared Statement of Ryan P. Jackson, Chairman, Hoopa Valley Tribal 
                                Council
    Thank you for the opportunity to present written testimony on 
behalf of the Hoopa Valley Indian Tribe concerning implementation of 
TLOA. I ask that the Committee consider our testimony carefully in 
determining whether to take remedial action regarding TLOA.
1. Introduction and Interest of the Hoopa Valley Tribe
    The Hoopa Valley Indian Reservation is the largest land based 
Indian reservation in California, \1\ comprising approximately 100,000 
acres in Humboldt County. Approximately 4,000 people live on the 
Reservation of whom about 51 percent are enrolled members of the Tribe. 
Most of the population lives in the valley of the Trinity River but 
some people live in the hills outside the valley. The Hoopa Valley 
Reservation is located in the heart of the Tribe's aboriginal lands, 
lands the Tribe has occupied since time immemorial. The federal 
government established the Hoopa Valley Reservation in 1864.
---------------------------------------------------------------------------
    \1\ The Klamath River runs through the northern part of our 
Reservation, and the Trinity River, the largest tributary of the 
Klamath, bisects our Reservation running south to north. The Hoopa 
Valley Tribe has critically important enforcement responsibilities for 
fishing and water rights in the Klamath Basin,, as recognized by the 
United States in the Memorandum from Solicitor of the Department of the 
Interior to the Secretary of the Interior (Oct. 4, 1993); and the 
Memorandum from Regional Solicitor, Pacific Southwest Region to the 
Regional Director, Bureau of Reclamation, Mid-Pacific Region (July 22, 
1995) (collectively, ``Solicitors' Opinions''); and by federal courts 
in, for example, Parravano v. Babbitt, 70 F.3d 539 (9th Cir. 1995).
---------------------------------------------------------------------------
    Hoopa Valley is an isolated location about 50 miles from the 
nearest coastal cities of Eureka, California and Arcata, California and 
separated from them by two mountain passes which are often impassable 
because of snow or other weather conditions.
2. Hoopa Has Shouldered the Burden of Providing Policing Within the 
        Hoopa Valley Reservation
    Congress required California to assume criminal jurisdiction of the 
Hoopa Valley Reservation in 1953. However, the State of California and 
Humboldt County lack the resources, or the will, or both to provide 
adequate law enforcement services. As a result, for many years the 
Tribe has undertaken that responsibility at tribal expense. The unique 
culture and history of the Tribe, the geographic remoteness of the 
Reservation, and the structure of tribal and federal Indian laws mean 
that having tribal police officers authorized to enforce state, federal 
and tribal laws will enhance law enforcement services and public 
safety.
    In 1995, the Tribe and Humboldt County negotiated a joint powers 
agreement under which both entities would acquire data, plan public 
outreach, and the Sheriff would deputize Hoopa tribal police officers 
to enforce state criminal laws upon completing a training course for 
deputy sheriffs as prescribed by the Commission on Peace Officers 
Standards and Training. However, in January 1996, the California 
Department of Justice determined that Indian tribal police were not 
within the definitions of the California Penal Code as being authorized 
to obtain criminal offender record information or otherwise recognized 
as peace officers under state law. Accordingly, the Hoopa Valley Tribe 
and Humboldt County Sheriff Dennis Lewis approached the state 
legislature for relief. Senator Mike Thompson introduced S.B. 1797 to 
provide county sheriffs and chiefs of police with clear authority to 
deputize tribal police officers as peace officers. Governor Wilson 
signed that bill into law in late 1996 and the sheriff's authority to 
deputize tribal police officers is now codified in California Penal 
Code  830.6 (b).
    Having tribal police officers deputized as county sheriffs 
minimizes the difficulty of enforcing state criminal laws against non-
tribal members on the Reservation though it exposes the officers to 
liability while acting under state law. However, that procedure works 
only with the cooperation of the duly elected Sheriff of Humboldt 
County. Shortly after his election in 2010, the new Sheriff for 
Humboldt County, Michael Downey, terminated the Deputization Agreement 
that has existed between the Tribe and Humboldt County since 1995. 
After a dangerous four-month hiatus in law enforcement services, the 
Sheriff realized his mistake and reinstated the agreement in April 
2011. However, the Sheriff again terminated the agreement on September 
23, 2015 and thus, through the present day, our qualified tribal police 
officers are unable to exercise arrest powers in most circumstances or 
to enforce state criminal laws.
    The enactment of TLOA in 2010 appeared to provide a solution to 
problems caused by the political whims of elected county sheriffs who 
may decline to deputize qualified tribal police officers. Section 221 
of TLOA authorizes the United States to reassume concurrent criminal 
jurisdiction upon the request of the Tribe. With full criminal 
jurisdiction tribal police officers to whom Special Law Enforcement 
Commissions have been issued by the Bureau of Indian Affairs Office of 
Justice Services are authorized to enforce the full panoply of 
applicable federal law. Further, California Penal Code  830.8 
authorizes such federal law enforcement officers, when engaged in the 
enforcement of federal criminal laws, to exercise arrest powers under 
state law also. Unfortunately, the potential solution offered by TLOA 
has proven to be unavailable.
3. Tribal Requests for the United States to Accept Concurrent 
        Jurisdiction Are Being Ignored
    In 2011, after our Deputization Agreement with Humboldt County had 
been terminated, the Hoopa Valley Tribe requested that the United 
States reassume concurrent criminal jurisdiction on the Reservation 
pursuant to  221 of TLOA. That request has lain dormant for nearly 
five years, receiving neither approval, nor rejection.
    On December 6, 2011 the Justice Department adopted regulations 
concerning assumption of concurrent federal criminal jurisdiction in 
certain areas of Indian Country, found at 28 CFR  50.25. The 
regulation prescribes the requirements for tribal requests and the 
procedure for handling them. Upon receipt of a tribal request the 
Office of Tribal Justice must promptly publish a notice in the Federal 
Register seeking comments from the general public. Requests received by 
February 28 of each calendar year will be ``prioritized for decision by 
July 31,'' of the same calendar year. After receiving written 
recommendations from the Office of Tribal Justice, the Executive Office 
of the United States Attorneys, and the Federal Bureau of 
Investigation, the Deputy Attorney General of the United States will 
consent to the request, deny it, or request further information. The 
Deputy Attorney General will also explain the basis of the decision and 
appropriate technical assistance will be offered for renewed request.
    The Justice Department has approved a total of one application 
under  221 of TLOA, the application of the White Earth Reservation in 
Minnesota, approved March 15, 2013. Four other applications have 
awaited consideration for three or more years including the Elk Valley 
Rancheria of California (noticed June 4, 2012), the Table Mountain 
Rancheria of California (noticed October 22, 2012), our application 
(noticed for the second time on October 22, 2012), and the Mille Lacs 
Band of Ojibwe of Minnesota (noticed March 19, 2013). To the best of 
our knowledge, all comments concerning our request have been fully 
addressed but no action has been forthcoming.
4. TLOA's Promise of Better Public Safety Is Not Being Realized
    The assumption of concurrent federal criminal jurisdiction will 
allow most criminal prosecutions to occur in California state court, 
rather than federal court. While federal criminal law is not 
comprehensive, the Indian Country Crimes Act, 18 U.S.C  1152, allows 
the Assimilative Crimes Act, 18 U.S.C.  13, to apply to Indian 
Country. The Assimilative Crimes Act fills any void in federal criminal 
law by using state criminal law. But without federal reassumption of 
concurrent criminal jurisdiction at Hoopa, the Assimilative Crimes Act 
does not apply.
    The 9th Circuit Court of Appeals recently ruled in Los Coyotes Band 
v. Jewell, 729 F.3d 1025 (9th Cir. 2013) that despite pressing need, 
the lack of existing BIA law enforcement programs in Public Law 280 
states such as California denies the tribes the opportunity to use the 
Indian Self Determination Act to carry out those services. The court 
said:

         It is hard to dispute that Indian Country may be one of the 
        most dangerous places in the United States. Statistics tell 
        only part of the story, and they are saddening: American 
        Indians are victims of violent crime at a rate twice the 
        national average. The Department of Justice estimates that 
        American Indians experience rates of violent crime higher than 
        most racial and ethnic groups.

         Violence against women is particularly prevalent; in some 
        American Indian communities women are murdered at a rate 10 
        times the national average. 30-4 percent of American Indian 
        women will be raped during their lifetime, compared to less 
        than 1 in 5 women nationwide.

        Los Coyotes Band at 1028-29.

    In our view, TLOA has failed because the Department of Justice has 
not carried it out. Deputy Attorney General Sally Quillian Yates should 
act promptly to approve the Hoopa Valley Tribe's request. We thank the 
Committee for holding an Oversight Hearing concerning implementation of 
TLOA.
                                 ______
                                 
Prepared Statement of Carol Wild Scott, Legislative Director, Veterans 
           and Military Law Section, Federal Bar Association
Veterans Treatment Courts: Proposed Implementation Within the Purview 
        of the TLOA
    At the heart of the burgeoning Veterans Treatment Court movement 
nationwide is the recognition that the returning Warrior frequently 
finds himself or herself unable to either understand or control the 
internal psychological and physiological changes resulting from the 
wounds of war--seen and unseen. Beyond that the ``Warrior Mentality'' 
prevents acknowledgement of the need for assistance. These forces all 
too frequently result in behaviors that bring the veteran into conflict 
with the rules and expectations of society, thus becoming defendants in 
the criminal justice system. The views expressed within this proposal 
are those of the Veterans & Military Law Section of the Federal Bar 
Association and not necessarily those of the FBA membership at large
    There is a place within the criminal justice system in Indian 
country for Veterans Treatment Courts, particularly with the 
implementation of the Tribal Law and Order Act. More than 190,000 
American Indian/Alaska Native and Hawaiian Natives are currently in 
uniform. Among the American Armed Forces in general, over (9) years, 
2.1 million American troops have served more than 3 million tours of 
duty. Of those returning from deployment an estimated 37-50 percent are 
diagnosed with PTSD or other serious mental issues and Traumatic Brain 
Injury (TBI), which frequently have overlapping symptoms. All these 
injuries have significant behavioral and psychological consequences 
which affect nearly 70 percent of those deployed, including Indian 
military members. These consequences then all too frequently include 
criminal offenses involving polysubstance abuse (self-medication), 
domestic violence and assault (the result of anger management issues) 
and petty theft, which correlate with polysubstance abuse. High rates 
of unemployment and unemployability also result from PTSD, TBI and 
other catastrophic physical trauma.
    Veterans Treatment Courts, integrated into the implementation of 
the Tribal Law and Order Act, which provides for alternatives to 
incarceration, would provide the best restorative and rehabilitative 
resource for veterans as well as their families in Indian country who 
are caught up in the criminal justice system. Veterans Treatment Courts 
(or a docket within the tribal court designated as such) would benefit 
the tribal communities by minimizing the expenditure of tribal 
resources for incarceration and economic assistance to the families of 
incarcerated veterans. This would be accomplished through a cooperative 
structure within the tribal community involving the tribal courts, 
prosecution and defense bars, DOJ, and the Department of Veterans 
Affairs (through the medical centers and the Criminal Justice Outreach 
Coordinators now assigned to each VAMC). A formal agreement, usually an 
MOU, would memorialize the structure and provide the operating 
procedure. Also involved would be Tribal Veterans Service Officers 
(TVSOs), tribal social services and the veterans community (which 
provide mentoring to each justice-involved veteran).
Structure:
    Traditionally, Veterans Treatment Courts are a cooperative effort 
between criminal trial courts on the state and local level, 
prosecutors, defense counsel and the Department of Veterans Affairs. 
These entities are all signatories of an MOU that establishes the 
parameters of the Veterans Treatment Court Program for that 
jurisdiction. In Indian country the participation of the Department of 
Veterans Affairs would have the added advantage of the MOUs between VA 
and IHS and those between VA and independent tribal health care systems 
would enter into an operational MOU for Veterans Treatment Courts 
pursuant to those agreements. The provisions of the TLOA would allow 
participation by DOJ, which on a case by case basis would cede 
jurisdiction to tribal courts where necessary and appropriate, 
dismissing charges without prejudice pending completion of the program 
by the veteran. Upon successful completion of the treatment program, 
charges would, ideally, be dismissed with prejudice. Provisions within 
the TLOA that provide for grants funding defense counsel, 
administrative costs, judicial training and other costs of 
implementation should be amended to include those associated with the 
establishment of Veterans Treatment Courts.
Process:
    1) Upon intake or at first appearance, the veteran would be offered 
the opportunity to participate in the Treatment Court Program provided 
he or she has an honorable or general discharge under honorable 
conditions. While VA treatment may not be available for those with 
other than honorable discharges, this prohibition would not affect 
treatment through IHS.
    2) If the veteran accepts the offer, he or she would be assessed 
for medical, psychological and economic needs by VA and where 
appropriate, IHS.
    3) If admission to the Treatment Court Program is appropriate, the 
veteran would then enter into the standard contract for that Veterans 
Treatment Court Program, individually modified to meet the assessed 
needs and setting out the ``Rules of the Road.'' Non-compliance with 
the terms of the contract could mean expulsion and re-entry into the 
criminal justice system. During the course of the contract the veteran 
would appear before the tribal judge at given intervals for progress 
assessment. In most VTCs, each participant must be present weekly for 
this purpose.
    4) Treatment begins; if substance abuse is an issue, then treatment 
may include in-patient treatment at a VA Medical Center, PTSD program 
or Substance Abuse facility, including family counseling where 
appropriate. This would also include programs designed for families 
both in the tribal community and through VA. In Indian country, 
traditional healing should be an integral part of the Treatment Court 
Program, providing strong tribal peer support through warrior 
societies, sweats and the assignment of individual ``quests.'' 
Treatment would of necessity include programs designed for families.
    5) At the initiation of the program a peer mentor would be paired 
with the veteran. Mentoring is a crucial aspect of the Veterans 
Treatment Court program. The mentors, all volunteers, are usually 
combat veterans with similar experiential histories and from all walks 
of life. Within the tribal community, elders with combat experience are 
very desirable. The crucial aspects are commitment to the mentee; being 
available 24/7 to assist the veteran to cope with various aspects of 
integration (or reintegration) into community and family; insuring that 
appointments are kept; assisting with search for employment and 
providing a highly personal relationship and emotional support. 
Training and orientation is important for the mentors, and is best 
accomplished by the VA or a mentor court such as the Tulsa, OK, 
Veterans Treatment Court.
    6) Assessment of benefit needs and eligibility would be provided 
through either Tribal Veterans Service Officers trained as advocates 
and certified by VA or non-Indian VSO's where TVSOs's are unavailable. 
Claims should be filed for compensation and pension benefits for which 
the veteran is eligible. Additionally, application to other VA programs 
geared to economic and educational benefits as well as vocational 
rehabilitation, independent living and where appropriate, 
entrepreneurial opportunities would be considered. Traditional Tribal 
Veterans Centers, if established would provide the focal point for all 
services provided through the Veterans Court.
    7) In the interim, criminal charges would remain pending, monitored 
by all parties and overseen by the tribal court. Transgressions would 
be promptly addressed and adjustments made as needed. If the veteran 
successfully completes the Treatment Court Program, the charges would 
be dropped. The mentoring relationship would be encouraged to continue 
and to be available to the veteran for an indefinite period of time to 
provide a greater degree of stability for the veteran and the family. 
Ongoing treatment would also remain available. Within the tribal 
community, consistent with traditional healing practices, involvement 
of tribal elders would be a distinct asset.
    8) In the instance of federal charges of a nature outside of the 
tribal court jurisdiction, there should be, under the cooperative 
provisions of the TLOA, and any MOU among the parties, the opportunity 
of ceded jurisdiction, with dismissal of federal charges without 
prejudice pending completion of the Veterans Treatment Court Program. 
This application would only be available on a case by case basis.
Benefits to the Tribal Community:
    1) Expense of incarceration is avoided. Treatment modalities are 
under VA/IHS MOU. The veteran is put on track for compensation or 
pension benefits from VA and any other available benefits, such as 
Social Security. Assessment, treatment and benefits are all VA budget 
items. Those budget items which would be tribal could, with minor 
adjustments, fall within the ranges contemplated by the grants 
provisions of the TLOA.
    2) The veteran and family become assets to the community, both 
sociologically and economically, as compensation is tax free, and the 
rehabilitated veteran may provide mentoring for others in like 
circumstances.
    3) There are a wide range of economic and educational programs and 
benefits available to these families in terms of educational programs 
for dependents of 100 percent disabled veterans, educational and 
vocational training benefits as well as independent living programs. 
Additionally, small business, employment and other entrepreneurial 
opportunities are available from VA, SBA, Department of Labor, etc. The 
most substantial benefit is the successful re-integration of a warrior 
into the tribal community as an integral part of the tribal community.
Conclusion:
    Veterans Treatment Courts can provide resources for reclaiming the 
lives of veterans who have lost an integral part of their stability and 
future on the field of battle. Over 27 percent of the entire population 
of American Indian/Alaska Native and Hawaiian Natives are either 
members or veterans of the US Armed Forces. Veterans Treatment Courts 
are provided for every generation of veteran. Had they been available 
after Vietnam, there would be far fewer veterans incarcerated in state 
and federal prisons.
    The economic contributions to the community cannot be 
underestimated. Communities which have instituted Veterans Treatment 
Courts have experienced an extremely low recidivism rate and have had 
the advantage of families leaving the social services safety net and 
becoming more financially independent either through increased 
employment rates or through the influx of VA and Social Security 
Disability benefits.
    The ultimate costs to the tribe are predominantly administrative, 
and are far outweighed by the cost of maintaining inmates with the 
collateral expense of dealing with broken homes and needy families. It 
is essential to understand that in nearly all instances veterans 
appearing before these courts served their country well and are 
carrying on their shoulders the weight of multiple deployments in a 
counter-insurgency environment (that is far more dangerous than any in 
our history) with short periods of respite and with little opportunity 
for R&R. This is one way for the tribal community to bring its Warriors 
home, with the opportunity for the individual restoration of honor.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Al Franken to 
                             Mirtha Beadle
    Opioids present both a law enforcement challenge and public health 
crisis in Minnesota. Indian reservations in my state have been on the 
frontline of this crisis. In fact, 28 percent of babies born addicted 
to opioids in Minnesota are Indian.
    I've met with tribal leaders, and what's clear from these meetings 
is that we need a multi-pronged approach to the opioid crisis in Indian 
Country. We need more research, less over-prescription, and better 
treatment.
    Question. How can SAMHSA help address the opioid crisis, in 
particular the need for more research that is focused on reducing 
opioid use in the Native American Population?
    Answer. SAMHSA shares your concerns regarding the impact of opioids 
on American Indian and Alaska Native communities and has been working 
on a number of activities over the past two years. SAMHSA believes that 
a coordinated, multisystem approach best serves the needs of all 
American Indian and Alaskan Native peoples including pregnant women on 
opioid pain medicine, misusing prescription opioids or who have opioid 
use disorders and, because of these factors, may be at risk for giving 
birth to an opioid exposed infant.
    Collaborative planning and implementation of services that reflect 
best practices for treating opioid use disorders during pregnancy 
require thoughtful planning because so many different professionals are 
charged with meeting the needs of the mother and child along the 
continuum from pregnancy, birth, and during the post-partum period. 
Advance planning for the treatment of pregnant women with opioid use 
disorders that addresses safe care for mothers and their newborns can 
help prevent unexpected crises at the time of delivery. Any response to 
the many barriers facing the families of pregnant women with opioid use 
disorders must be grounded in solutions within the community that 
reflect best practices (e.g., evidence-based practices) as well as 
values, resources, and policies that address the needs of the 
community.
    In September 2014, SAMHSA's National Center on Substance Abuse and 
Child Welfare (NCSACW) began work with six states, including Minnesota, 
to provide technical assistance (TA) to advance the capacity of tribes, 
state and local jurisdictions to improve the safety, health, permanency 
and well-being of infants exposed to maternal alcohol and other drug 
use, particularly opioids, during pregnancy, and the recovery of 
pregnant and parenting women and their families. The TA is 
strengthening the collaboration and linkages across child welfare, 
substance use and mental health treatment, medical communities, early 
intervention and early care and education systems, family courts and 
other key stakeholders to improve outcomes for pregnant and parenting 
women, their infants and their families.
    Each state organizes an extensive Stakeholder Coordinating 
Committee that receives ongoing facilitation and support to assist the 
state in meeting its identified goals and objectives within this 
initiative. Minnesota has formed three primary workgroups that are 
associated with each of the following three primary objectives:

        1. Screening and Assessment--Pregnant women, substance exposed 
        infants and their families are identified in a consistent, 
        uniform, and timely manner across all systems.

        2. Joint Accountability and Shared Outcomes--Partners have 
        developed a collaborative practice approach to serving 
        substance exposed infants and their families that intersect 
        each of their systems.

        3. Services for pregnant women, substance exposed infants and 
        their family--Partners have agreed upon evidence-based 
        practices and programs that meet the needs of the target 
        populations and have processes in place for monitoring use and 
        effectiveness of these programs.

Minnesota Partners
    The partners involved in the Minnesota initiative include:

  <bullet> Minnesota Department of Human Services (Alcohol and Drug 
        Abuse Division--American Indian Section, Legislative 
        Communications, and State Methadone Authority)

  <bullet> Minnesota Department of Human Services (ICWA Consultant)

  <bullet> Minnesota Department of Health

  <bullet> Tribes and Tribal Organizations (American Indian Mental 
        Health Advisory Council, Boise Forte Band of Chippewa, Fond du 
        Lac Band of Chippewa, Leech Lake Band of Ojibwe, Mille Lacs 
        Band of Ojibwe, Red Lake Nation, White Earth Nation)

    The intent of the partners is to increase the number of women that 
are screened during pregnancy, linked to treatment and supportive 
services, and have substance-free, healthy births. The partners also 
seek to decrease the number of pregnant women that use substances, 
including tobacco, during pregnancy; the number of infants that suffer 
from NAS/withdrawal symptoms; and, the stigma associated with needing 
and seeking help. The partners are working to develop a State/Tribe 
Oversight Committee that will commit to mobilizing resources and policy 
to support sustainability of the initiative.
Resources
    SAMHSA will be releasing a new publication entitled ``A 
Collaborative Approach to the Treatment of Pregnant Women with Opioid 
Use Disorders.'' The publication includes a guide for collaborative 
planning with system-specific guides to assess practices and policies 
used across systems in working with pregnant women with opioid use 
disorders, including a cross system guide as well as guides for the 
mother's medical providers, the infant's medical providers, substance 
use treatment and medication-assisted treatment providers, child 
welfare providers, and dependency and family drug court professionals.
    Another SAMHSA resource is the Residential Treatment for Pregnant 
and Postpartum Women (PPW) Program that expands the availability of 
comprehensive, residential substance abuse treatment, prevention, and 
recovery support services for PPW and their minor children, including 
services for non-residential family members of both the women and 
children. The PPW program supports evidence-based treatment models 
including trauma-specific services which will:

  <bullet> Decrease the use and/or abuse of prescription drugs, 
        alcohol, tobacco, illicit and other harmful drugs (e.g., 
        inhalants) among pregnant and postpartum women;

  <bullet> Increase safe and healthy pregnancies;

  <bullet> Improve birth outcomes;

  <bullet> Reduce perinatal and environmentally related effects of 
        maternal and/or paternal drug abuse on infants and children; 
        and

  <bullet> Improve physical health of the women and children.

    While PPW grantees may not specifically address Neonatal Abstinence 
Syndrome (NAS), the withdrawal symptom some babies experience after 
being exposed to maternal opioid use prior to birth, SAMHSA is aware 
that many of the women in the PPW program have disorders related to the 
use of opioids and that PPW grantees serve infants who experience NAS.
    The Wayside Whole Family Treatment Project, near Minneapolis, 
receives PPW Program funding to provide evidence-based residential 
family treatment services to assist women, their children, and their 
families recover from addiction, reunify, and build stable lives. The 
project prioritizes women who are pregnant, intravenous drug users with 
minor children, and women involved with child protection. There are 
other PPW grantees across the nation and the Volunteers of America, 
Dakotas (VOAD) in South Dakota is specifically working with the 
American Indian community. This PPW project serves women and their 
families who reside throughout the state and in Southwest Minnesota and 
Northwest Iowa. An estimated 95 percent of women are diagnosed with co-
occurring disorders, including mental health disorders primarily 
consisting of depression, anxiety, bi-polar disorder, borderline 
personality disorder, and anti-social personality disorder.
Research
    SAMHSA's Center for Behavioral Health Statistics and Quality 
(CBHSQ) currently conducts research on the epidemiology of and factors 
contributing to opioid use and misuse among American Indians and Alaska 
Natives. CBHSQ collects data through the National Survey on Drug Use 
and Health (NSDUH) on substance use and mental health, including opioid 
use and misuse, as well as associated demographic and risk and 
protective factors. Data are also collected through the Treatment 
Episode Dataset (TEDS) on treatment admissions and discharges, as well 
as associated demographic factors. CBHSQ frequently reports on analyses 
by demographic characteristics, including for the American Indian and 
Alaska Native population. CBHSQ is developing a Public Health Research 
and Surveillance Agenda for the American Indian and Alaska Native (AI/
AN) population that will include a description of what is known and 
questions that remain regarding the behavioral health epidemiology of 
the AI/AN population. Recent CBHSQ publications include:

  <bullet> 2014 National Survey on Drug Use and Health: Detailed Tables 
        (2015)

  <bullet> The NSDUH Report: Need for and Receipt of Substance Use 
        Treatment among American Indians or Alaska Natives (November 
        2014)

  <bullet> The TEDS Report: American Indian and Alaska Native Substance 
        Abuse Treatment Admissions Are More Likely Than Other 
        Admissions to Report Alcohol Abuse (November 2014)

  <bullet> Treatment Episode Data Set (TEDS): 2002-2013. National 
        Admissions to Substance Abuse Treatment Services (2015)

  <bullet> Data Spotlight: Almost Half of American Indian and Alaska 
        Native Adult Substance Abuse Treatment Admissions Are Referred 
        through the Criminal Justice System (November 2012)

    The National Institute on Drug Abuse (NIDA), within the National 
Institutes of Health, also funds research on opioid misuse. Since 1975, 
NIDA has funded the Monitoring The Future (MTF) survey, which measures 
drug, alcohol, and cigarette use and related attitudes among adolescent 
students nationwide. Survey participants report their drug use 
behaviors (including prescription opioid misuse) across three time 
periods: lifetime, past year, and past month. Overall, 44,892 students 
from 382 public and private schools participated in this year's MTF 
survey. NIDA has also funded research comparing MTF survey results with 
survey data specific to the AI/AN population.
                                 ______
                                 
    Written Question Submitted by Hon. Al Franken to Tracy Toulou *
---------------------------------------------------------------------------
    * Response to the following question was not available at the time 
this hearing went to print.
---------------------------------------------------------------------------
    Tragically, Native American women are sexually assaulted at four 
times the national rate. For years, jurisdictional problems have often 
allowed non-Indians to commit crimes of sexual violence on reservations 
with impunity. The 2013 VAWA reauthorization restored tribes' criminal 
jurisdiction over non-Indians who commit acts of domestic or dating 
violence and increased the amount of VAWA funding for tribal programs. 
That provision took effect earlier this year. In addition, the Tribal 
Law and Order Act authorized new guidelines for handling sexual assault 
and domestic violence crimes.
    Question. What effect have these two bills had so far in addressing 
sexual assault and domestic violence?

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
